May 29, 2012

TO:            Marilyn Tavenner
               Acting Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Risk Adjustment Data Validation of Payments Made to PacifiCare of Texas for
               Calendar Year 2007 (Contract Number H4590) (A-06-09-00012)


Attached, for your information, is an advance copy of our final report on risk adjustment data
validation of payments made to PacifiCare of Texas (PacifiCare) for calendar year 2007
(contract number H4590). We will issue this report to Ovations, a business unit of PacifiCare,
within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Brian P. Ritchie, Assistant Inspector General for the Centers for Medicare
& Medicaid Audits, at (410) 786-7104 or through email at Brian.Ritchie@oig.hhs.gov or Patricia
Wheeler, Regional Inspector General for Audit Services, Region VI, at (214) 767-8414 or
through email at Trish.Wheeler@oig.hhs.gov. Please refer to report number A-06-09-00012.


Attachment
                                                             O FFICE OF A UDIT S ERVICES , R EGION VI
May 30, 2012                                                    1100 C OMMERCE S TREET, R OOM 632
                                                                                  D ALLAS , TX 75242
Report Number: A-06-09-00012

Mr. Jack Larsen
CFO
Ovations
9701 Data Park Drive
Minnetonka, MN 55343

Dear Mr. Larsen:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled Risk Adjustment Data Validation of Payments Made to
PacifiCare of Texas for Calendar Year 2007 (Contract Number H4590). We will forward a copy
of this report to the HHS action official noted on the following page for review and any action
deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(214) 767-8414, or contact Paul Garcia, Audit Manager, at (512) 339-3071 or through email at
Paul.Garcia@oig.hhs.gov. Please refer to report number A-06-09-00012 in all correspondence.

                                             Sincerely,



                                             /Patricia M. Wheeler/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Jack Larsen


Direct Reply to HHS Action Official:

Mr. Timothy P. Love
Acting Deputy Director
Center for Medicare
Centers for Medicare & Medicaid Services
Mail Stop C3-20-11
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




 RISK ADJUSTMENT DATA VALIDATION
OF PAYMENTS MADE TO PACIFICARE OF
   TEXAS FOR CALENDAR YEAR 2007
     (CONTRACT NUMBER H4590)




                         Daniel R. Levinson
                          Inspector General

                             May 2012
                           A-06-09-00012
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Under the Medicare Advantage (MA) program, the Centers for Medicare & Medicaid Services
(CMS), makes monthly capitated payments to MA organizations for beneficiaries enrolled in the
organizations’ health care plans (beneficiaries). Subsections 1853(a)(1)(C) and (a)(3) of the
Social Security Act require that these payments be adjusted based on the health status of each
beneficiary. CMS uses the Hierarchical Condition Category (HCC) model (the CMS model) to
calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. MA organizations identify the diagnoses relevant to the CMS model and
submit these diagnoses to CMS. CMS categorizes the diagnoses into groups of clinically related
diseases called HCCs and uses the HCCs and demographic characteristics to calculate a risk
score for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated
payments to MA organizations for the next payment period.

PacifiCare of Texas (PacifiCare) is an MA organization owned by UnitedHealth Group. For
calendar year (CY) 2007, PacifiCare had multiple contracts with CMS, including contract
H4590, which we refer to as “the contract.” Under the contract, CMS paid PacifiCare
approximately $1.3 billion to administer health care plans for approximately 118,000
beneficiaries.

OBJECTIVE

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

SUMMARY OF FINDINGS

The diagnoses that PacifiCare submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. The risk scores calculated using the diagnoses that
PacifiCare submitted for 57 of the 100 beneficiaries in our sample were valid. The risk scores
for the remaining 43 were invalid because the diagnoses were not supported for one or both of
the following reasons:

   •   The documentation did not support the associated diagnosis.

   •   The diagnosis was unconfirmed.

PacifiCare did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS. Furthermore, PacifiCare’s practices were not effective in ensuring that the
diagnoses it submitted to CMS complied with the requirements of the 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006


                                                  i
Participant Guide) and the 2007 Risk Adjustment Data Training for Medicare Advantage
Organizations Participant Guide (the 2007 Participant Guide). UnitedHealth Group officials
stated that the providers were responsible for the accuracy of the diagnoses that PacifiCare
submitted to CMS.

As a result of these unsupported and unconfirmed diagnoses, PacifiCare received $183,247 in
overpayments from CMS. Based on our sample results, we estimated that PacifiCare was
overpaid approximately $115,422,084 in CY 2007.

RECOMMENDATIONS

We recommend the following:

   •   PacifiCare should refund to the Federal Government $183,247 in overpayments identified
       for the sampled beneficiaries.

   •   PacifiCare should work with CMS to determine the correct contract-level adjustment for
       the projected $115,422,084 of overpayments. (This amount represents our point
       estimate. However, it is our policy to recommend recovery of overpayments at the lower
       limit of the 90-percent confidence interval, which is $82,129,887. See Appendix B.)

   •   PacifiCare should implement written policies and procedures for obtaining, processing,
       and submitting valid risk adjustment data.

   •   PacifiCare should improve its current practices to ensure compliance with Federal
       requirements.

PACIFICARE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, PacifiCare disagreed with our findings and said that our
analysis, methodology, and projection were flawed. PacifiCare also stated that our audit results
did not account for error rates inherent in Medicare fee-for-service (FFS) data, specifically the
disparity between FFS claims data and FFS medical records data and its potential impact on MA
payments. In addition, PacifiCare stated that we should have used the 2006 Participant Guide to
evaluate PacifiCare’s compliance with CMS’s requirements. PacifiCare’s comments appear in
their entirety as Appendix D.

While an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. Because of the potential impact of these
error rates on the CMS model we used to recalculate MA payments for the beneficiaries in our
sample, we (1) modified one recommendation to have PacifiCare refund only the overpayments
identified for the sampled beneficiaries rather than refund the projected overpayments and
(2) added a recommendation that PacifiCare work with CMS to determine the correct contract-
level adjustments for the projected overpayments.



                                                ii
Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in both the
2006 and 2007 Participant Guides and determined that there were no substantial differences in
the criteria upon which our results were based. Nothing in PacifiCare’s comments has caused us
to change our findings or other recommendations.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Advantage Program .............................................................................1
              Risk-Adjusted Payments ......................................................................................1
              Federal Requirements ..........................................................................................1
              PacifiCare of Texas ..............................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................2
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          FEDERAL REQUIREMENTS ........................................................................................5

          UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES .............................5
               Unsupported Diagnosis Coding ...........................................................................6
               Unconfirmed Diagnoses.......................................................................................6

          CAUSES OF OVERPAYMENTS ...................................................................................6

          ESTIMATED OVERPAYMENTS .................................................................................7

          RECOMMENDATIONS .................................................................................................7

          PACIFICARE COMMENTS AND OFFICE OF INSPECTOR
           GENERAL RESPONSE ................................................................................................8
                Random Sample ...................................................................................................9
                Audit Methodology ..............................................................................................9
                Hierarchical Condition Categories Derived From Medical Records ...................10
                Centers for Medicare & Medicaid Services Model .............................................10
                Members Who Terminated Coverage or Changed Status....................................11
                Audit Processes and Standards ............................................................................11
                Incidental Hierarchal Condition Categories.........................................................12
                Two Levels of Review .........................................................................................12
                Physician Signature Attestations..........................................................................13
                Individual Payment Adjustments .........................................................................13
                Invalidated Hierarchal Condition Categories.......................................................14
                Policies and Procedures .......................................................................................14




                                                                    iv
APPENDIXES

    A: SAMPLE DESIGN AND METHODOLOGY

    B: SAMPLE RESULTS AND ESTIMATES

    C: DOCUMENTATION ERRORS IN SAMPLE

    D: PACIFICARE COMMENTS




                               v
                                             INTRODUCTION

BACKGROUND

Medicare Advantage Program

The Balanced Budget Act of 1997, P.L. No. 105-33, established Medicare Part C to offer
beneficiaries managed care options through the Medicare+Choice program. Section 201 of the
Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
revised Medicare Part C and renamed the program the Medicare Advantage (MA) program.
Organizations that participate in the MA program include health maintenance organizations,
preferred provider organizations, provider-sponsored organizations, and private fee-for-service
(FFS) plans. The Centers for Medicare & Medicaid Services (CMS), which administers the
Medicare program, makes monthly capitated payments to MA organizations for beneficiaries
enrolled in the organizations’ health care plans (beneficiaries).

Risk-Adjusted Payments

Subsections 1853(a)(1)(C) and (a)(3) of the Social Security Act require that payments to
MA organizations be adjusted based on the health status of each beneficiary. In calendar year
(CY) 2004, CMS implemented the Hierarchical Condition Category (HCC) model (the CMS
model) to calculate these risk-adjusted payments.

Under the CMS model, MA organizations collect risk adjustment data, including beneficiary
diagnoses, from hospital inpatient facilities, hospital outpatient facilities, and physicians during a
data collection period. 1 MA organizations identify the diagnoses relevant to the CMS model and
submit them to CMS. CMS categorizes the diagnoses into groups of clinically related diseases
called HCCs and uses the HCCs, as well as demographic characteristics, to calculate a risk score
for each beneficiary. CMS then uses the risk scores to adjust the monthly capitated payments to
MA organizations for the next payment period. 2

Federal Requirements

Regulations (42 CFR § 422.310(b)) require MA organizations to submit risk adjustment data to
CMS in accordance with CMS instructions. CMS issued instructions in its 2006 Risk Adjustment
Data Basic Training for Medicare Advantage Organizations Participant Guide (the 2006
Participant Guide) that provided requirements for submitting risk adjustment data for the
CY 2006 data collection period. CMS issued similar instructions in its 2007 Risk Adjustment
Data Training for Medicare Advantage Organizations Participant Guide (the 2007 Participant
Guide).

1
  Risk adjustment data also include health insurance claim numbers, provider types, and the from and through dates
for the services.
2
 For example, CMS used data that MA organizations submitted for the CY 2006 data collection period to adjust
payments for the CY 2007 payment period.


                                                         1
Diagnoses included in risk adjustment data must be based on clinical medical record
documentation from a face-to-face encounter; coded according to the International Classification
of Diseases, Ninth Revision, Clinical Modification (ICD-9-CM) (the Coding Guidelines);
assigned based on dates of service within the data collection period; and submitted to the MA
organization from an appropriate risk adjustment provider type and an appropriate risk
adjustment physician data source. The 2006 and 2007 Participant Guides described requirements
for hospital inpatient, hospital outpatient, and physician documentation.

PacifiCare of Texas

PacifiCare of Texas (PacifiCare) is an MA organization owned by UnitedHealth Group. For
CY 2007, PacifiCare had multiple contracts with CMS, including contract H4590, which we
refer to as “the contract.” Under the contract, CMS paid PacifiCare approximately $1.3 billion to
administer health care plans for approximately 118,000 beneficiaries.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements.

Scope

Our review covered approximately $827 million of the CY 2007 MA organization payments that
CMS made to PacifiCare on behalf of 62,987 beneficiaries. These payments were based on risk
adjustment data that PacifiCare submitted to CMS for CY 2006 dates of service for beneficiaries
who (1) were continuously enrolled under the contract during all of CY 2006 and January of
CY 2007 3 and (2) had a CY 2007 risk score that was based on at least one HCC. We limited our
review of PacifiCare’s internal control structure to controls over the collection, processing, and
submission of risk adjustment data.

We asked PacifiCare to provide us with the one medical record that best supported the HCC(s)
that CMS used to calculate each risk score. If our review found that a medical record did not
support one or more assigned HCCs, we gave PacifiCare the opportunity to submit an additional
medical record for a second review.

We performed our fieldwork at UnitedHealth Group in Minnetonka, Minnesota, and at CMS in
Baltimore, Maryland, from October 2008 through December 2009.




3
 We limited our sampling frame to continuously enrolled beneficiaries to ensure that PacifiCare was responsible for
submitting the risk adjustment data that resulted in the risk scores covered by our review.


                                                         2
Methodology

To accomplish our objective, we did the following:

    •    We reviewed applicable Federal laws, regulations, and guidance regarding payments to
         MA organizations.

    •    We interviewed CMS officials to obtain an understanding of the CMS model.

    •    We obtained the services of a medical review contractor to determine whether the
         documentation that PacifiCare submitted supported the HCCs associated with the
         beneficiaries in our sample.

    •    We interviewed UnitedHealth Group officials to gain an understanding of PacifiCare’s
         internal controls for obtaining risk adjustment data from providers, processing the
         data, and submitting the data to CMS.

    •    We obtained enrollment data, CY 2007 beneficiary risk score data, and CY 2006 risk
         adjustment data from CMS and identified 62,987 beneficiaries who (1) were
         continuously enrolled under the contract during all of CY 2006 and January of CY 2007
         and (2) had a CY 2007 risk score that was based on at least one HCC.

    •    We selected a simple random sample of 100 beneficiaries with 214 HCCs. (See
         Appendix A for our sample design and methodology.) For each sampled beneficiary, we:

             o    analyzed the CY 2007 beneficiary risk score data to identify the HCC(s) that
                  CMS assigned;

             o    analyzed the CY 2006 risk adjustment data to identify the diagnosis or diagnoses
                  that PacifiCare submitted to CMS associated with the beneficiary’s HCC(s);

             o    requested that PacifiCare provide us with documentation associated with an
                  encounter that, in PacifiCare’s judgment, best supported the HCC(s) that CMS
                  used to calculate the beneficiary’s risk score;

             o    obtained PacifiCare’s certification that the documentation provided represented
                  “the one best medical record to support the HCC”; 4 and

             o    submitted PacifiCare’s documentation and HCCs for each beneficiary to our
                  medical review contractor for a first round of review and requested additional
                  documentation from PacifiCare for a second round of review if the contractor

4
  The 2006 Participant Guide, sections 8.2.3 and 8.2.3.1, and the 2007 Participant Guide, sections 7.2.3 and 7.2.3.1,
required plans to select the “one best medical record” to support each HCC and indicate that the best medical record
may include a range of consecutive dates (if the record is from a hospital inpatient provider) or one date (if the
record is from a hospital outpatient or physician provider).



                                                          3
                   found that documentation submitted during the first round did not support the
                   HCCs.

    •       For the sampled beneficiaries that we determined to have unsupported HCCs, we (1) used
            the medical review results to adjust the beneficiaries’ risk scores, (2) recalculated
            CY 2007 payments using the adjusted risk scores, and (3) subtracted the recalculated
            CY 2007 payments from the actual CY 2007 payments to determine the overpayments
            and underpayments CMS made on behalf of the beneficiaries.

    •       We estimated the total value of overpayments based on our sample results. (See
            Appendix B for our sample results and estimates.)

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

The diagnoses that PacifiCare submitted to CMS for use in CMS’s risk score calculations did not
always comply with Federal requirements. The risk scores calculated using the diagnoses that
PacifiCare submitted for 57 of the 100 beneficiaries in our sample were valid. The risk scores
for the remaining 43 were invalid because the diagnoses were not supported for one or both of
the following reasons:

        •    The documentation did not support the associated diagnosis.

        •    The diagnosis was unconfirmed. 5

PacifiCare did not have written policies and procedures for obtaining, processing, and submitting
diagnoses to CMS. Furthermore, PacifiCare’s practices were not effective in ensuring that the
diagnoses it submitted to CMS complied with the requirements of the 2006 and 2007 Participant
Guides. UnitedHealth Group officials stated that providers were responsible for the accuracy of
the diagnoses that PacifiCare submitted to CMS.

As a result of these unsupported and unconfirmed diagnoses, PacifiCare received $183,247 in
overpayments from CMS. Based on our sample results, we estimated that PacifiCare was
overpaid approximately $115,422,084 in CY 2007.




5
 The 2006 and 2007 Participant Guides state that physicians and hospital outpatient departments may not code
diagnoses documented as “probable,” “suspected,” “questionable,” “rule out,” or “working.” The Participant
Guides consider these diagnoses as unconfirmed. (See section 5.4.2 of the 2006 Participant Guide and section 6.4.2
of the 2007 Participant Guide.)


                                                        4
FEDERAL REQUIREMENTS

Regulations (42 CFR § 422.310(b)) state: “Each MA organization must submit to CMS (in
accordance with CMS instructions) the data necessary to characterize the context and purposes
of each service provided to a Medicare enrollee by a provider, supplier, physician, or other
practitioner. CMS may also collect data necessary to characterize the functional limitations of
enrollees of each MA organization.” The 2007 Participant Guide, section 8.7.3, and the 2006
Participant Guide, section 7.7.3, state that “MA organizations are responsible for the accuracy of
the data submitted to CMS.”

Pursuant to section 2.2.1 of the 2007 and 2006 Participant Guides, risk adjustment data
submitted to CMS must include a diagnosis. Pursuant to the 2007 Participant Guide, section
7.1.4, and the 2006 Participant Guide, section 8.1.3, the diagnosis must be coded according to the
Coding Guidelines. Section III of the Coding Guidelines states that for each hospital inpatient
stay, the hospital’s medical record reviewer should code the principal diagnosis and “… all
conditions that coexist at the time of admission, that develop subsequently, or that affect the
treatment received and/or length of stay. Diagnoses that relate to an earlier episode which have
no bearing on the current hospital stay are to be excluded.” Sections II and III of the Coding
Guidelines state that “if the diagnosis documented at the time of discharge is qualified as
‘probable,’ ‘suspected,’ ‘likely,’ ‘questionable,’ ‘possible,’ or ‘still to be ruled out,’ code the
condition as if it existed or was established.”

Section IV of the Coding Guidelines states that for each outpatient and physician service, the
provider should “[c]ode all documented conditions that coexist at the time of the encounter/visit,
and require or affect patient care treatment or management.” The Coding Guidelines also state
that conditions should not be coded if they “… were previously treated and no longer exist.
However, history codes … may be used as secondary codes if the historical condition or family
history has an impact on current care or influences treatment.” Additionally, in outpatient and
physician settings, uncertain diagnoses, including those that are “probable,” “suspected,”
“questionable,” or “working,” should not be coded.

UNSUPPORTED HIERARCHICAL CONDITION CATEGORIES

To calculate beneficiary risk scores and risk-adjusted payments to MA organizations, CMS must
first convert diagnoses to HCCs. During our audit period, PacifiCare submitted to CMS at least
one diagnosis associated with each HCC that CMS used to calculate each sampled beneficiary’s
risk score for CY 2007. The risk scores for 43 sampled beneficiaries were invalid because the
diagnoses that PacifiCare submitted to CMS were not supported, confirmed, or both. These
diagnoses were associated with 58 HCCs. Appendix C shows the documentation error or errors
found for each of the 58 HCCs. These errors were for unsupported diagnosis coding and
unconfirmed diagnoses.




                                                5
Unsupported Diagnosis Coding

The documentation that PacifiCare submitted to us for medical review did not support the
diagnoses associated with 57 HCCs. The following are examples of HCCs that were not
supported by PacifiCare’s documentation.

   •   For one beneficiary, PacifiCare submitted the diagnosis code for “major depressive
       disorder, recurrent episode, moderate.” CMS used the HCC associated with this
       diagnosis in calculating the beneficiary’s risk score. However, the documentation that
       PacifiCare provided stated that the patient had complained of leg pain and difficulty
       walking. The documentation did not indicate that depression had affected the care,
       treatment, or management provided during the encounter.

   •   For a second beneficiary, PacifiCare submitted the diagnosis code for “peripheral
       vascular disease”(PVD). CMS used the HCC associated with PVD in calculating the
       beneficiary’s risk score. However, the documentation that PacifiCare provided indicated
       that the patient’s chief complaint on the date of service was pain in her right foot, which
       was caused by a heavy can that fell on her foot. The documentation did not mention
       PVD or indicate that PVD had affected the care, treatment, or management provided
       during the encounter.

   •   For a third beneficiary, PacifiCare submitted the diagnosis code for “malignant neoplasm
       of the brain, cerebrum, except for lobes and ventricles.” CMS used the HCC associated
       with this diagnosis in calculating the beneficiary’s risk score. However, the
       documentation that PacifiCare provided referenced benign prostatic hypertrophy. The
       documentation did not mention brain cancer or indicate that brain cancer had affected the
       care, treatment, or management provided during the encounter.

Unconfirmed Diagnoses

Three HCCs were unsupported because the diagnoses submitted to CMS were unconfirmed.

For example, for one beneficiary, PacifiCare submitted a diagnosis code for “chronic airway
obstruction, not elsewhere classified.” CMS used the HCC associated with this diagnosis in
calculating the beneficiary’s risk score. The documentation that PacifiCare submitted noted a
“history of smoking with possible mild chronic obstructive pulmonary disease.” Diagnoses that
are “probable,” “suspected,” “questionable,” or “working” should not have been coded.

CAUSES OF OVERPAYMENTS

During our audit period, PacifiCare did not have written policies and procedures for obtaining,
processing, and submitting risk adjustment data to CMS. UnitedHealth Group officials informed
us that PacifiCare had since developed written policies and procedures but had not implemented
them as of December 2, 2009.




                                                6
According to UnitedHealth Group officials, PacifiCare had practices, including error correction
and chart validation, in place to ensure the accuracy of the diagnoses that it submitted to CMS:

      •    Error correction is an automated process designed to identify provider-submitted
           diagnosis codes that do not exist in the Coding Guidelines. UnitedHealth Group officials
           told us that 0.19 percent of the provider-submitted diagnosis codes were rejected by the
           automated process and manually corrected in CYs 2008 and 2009.

      •    Chart validation is a review of documentation to ensure that the diagnoses submitted to
           CMS are correctly coded. However, UnitedHealth Group officials stated that PacifiCare
           did not routinely use chart validation as a preventive practice but rather used it as a
           response to external auditors’ requests for documentation that best supports the diagnoses
           already submitted to CMS.

As demonstrated by the significant error rate found in our sample, PacifiCare’s practices were
not effective in ensuring that the diagnoses submitted to CMS complied with the requirements of
the 2006 and 2007 Participant Guides. UnitedHealth Group officials stated that providers were
responsible for the accuracy of the diagnoses that PacifiCare submitted to CMS.

ESTIMATED OVERPAYMENTS

As a result of the unsupported and unconfirmed diagnoses in our sample, PacifiCare received
$183,247 in overpayments from CMS. Based on our sample results, we estimated that
PacifiCare was overpaid approximately $115,422,084 in CY 2007. However, while an analysis
to determine the potential impact of error rates inherent in FFS data on MA payments was
beyond the scope of our audit, we acknowledge that CMS is studying this issue and its potential
impact on audits of MA organizations. 6

Therefore, because of the potential impact these error rates could have on the CMS model we
used to recalculate MA payments for the beneficiaries in our sample, we (1) modified one
recommendation to have PacifiCare refund only the overpayments identified for the sampled
beneficiaries rather than refund the projected overpayments and (2) added a recommendation that
PacifiCare work with CMS to determine the correct contract-level adjustments for the projected
overpayments.

RECOMMENDATIONS

We recommend the following:

      •    PacifiCare should refund to the Federal Government $183,247 in overpayments identified
           for the sampled beneficiaries.




6
    75 Fed. Reg. 19749 (April 15, 2010).


                                                   7
      •    PacifiCare should work with CMS to determine the correct contract-level adjustment for
           the projected $115,422,084 7 of overpayments.

      •    PacifiCare should implement written policies and procedures for obtaining, processing,
           and submitting valid risk adjustment data.

      •    PacifiCare should improve its current practices to ensure compliance with the Federal
           requirements.

PACIFICARE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, PacifiCare 8 disagreed with our findings and said that
our analysis, methodology, and extrapolation were flawed. PacifiCare also stated that we did not
account for error rates inherent in Medicare FFS data, specifically the disparity between FFS
claims data and FFS medical records data and its potential impact on MA payments. In addition,
PacifiCare stated that we should have used the 2006 Participant Guide to evaluate PacifiCare’s
compliance with CMS’s requirements. PacifiCare’s comments, which we summarize below, are
included in their entirety as Appendix D.

While an analysis to determine the potential impact of error rates inherent in FFS data on MA
payments was beyond the scope of our audit, we acknowledge that CMS is studying this issue
and its potential impact on audits of MA organizations. 9 Therefore, because of the potential
impact of these error rates on the CMS model we used to recalculate MA payments for the
beneficiaries in our sample, we (1) modified one recommendation to have PacifiCare refund only
the overpayments identified for the sampled beneficiaries rather than refund the projected
overpayments and (2) added a recommendation that PacifiCare work with CMS to determine the
correct contract-level adjustments for the projected overpayments.

Regarding CMS’s 2006 Participant Guide, we based our findings on criteria set forth in CMS’s
2007 Participant Guide. After our review, we compared the data submission criteria in both the
2006 and 2007 Participant Guides and determined that there were no substantial differences in
the criteria upon which our results were based. Nothing in PacifiCare’s comments has caused us
to change our findings or other recommendations.




7
  This amount represents our point estimate. However, it is our policy to recommend recovery of overpayments at
the lower limit of the 90-percent confidence interval, which is $82,129,887. See Appendix B.
8
 The letterhead of the written comments is from Ovations, a business unit of UnitedHealth Group that merged with
PacifiCare in 2005.
9
    75 Fed. Reg. 19749 (April 15, 2010).


                                                        8
Random Sample

PacifiCare Comments

PacifiCare stated that our sample of 100 beneficiaries did not fully represent the 118,000
members enrolled in the contract or the 62,987 members who had a risk score based on at least 1
HCC during our audit period. PacifiCare said that because only 40 of the 70 HCCs that appeared
in the population were represented in our audit sample, our sample did not accurately represent
the population.

Office of Inspector General Response

Our sample size of 100 beneficiaries provided a fair and unbiased representation of the 62,987
members in our sampling frame.

A random sample is not required to contain one or more items from every subgroup within a
sampling frame because a very small HCC subgroup would have only a small probability of
inclusion in the sample. Of the 30 HCCs not represented in our sample, 26 had a frequency of
less than 1 percent of the sampling frame, and the remaining 4 had a frequency of less than 3
percent.

Audit Methodology

PacifiCare Comments

PacifiCare stated that we recommended a repayment amount using a methodology that has not
been vetted by CMS and on which MA organizations have not had the opportunity to comment.
PacifiCare further stated that we did not follow an established CMS methodology to calculate
payment errors and that we did not adequately describe our payment calculation and
extrapolation methodology and our basis for using that methodology. PacifiCare stated that our
methodology must mirror a CMS methodology and that CMS has not determined a methodology.

Office of Inspector General Response

Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of U.S. Department of Health and Human Services (HHS) programs
and operations. Accordingly, we do not always determine, nor are we required to determine,
whether our payment error calculation and extrapolation methodology are consistent with CMS’s
methodology. We designed our review to determine whether diagnoses that PacifiCare
submitted for use in CMS’s risk score calculations complied with Federal requirements. In
addition, we described our payment error calculation in the body of our report. We described our
sample selection and estimated methodology in Appendixes A and B.




                                               9
Hierarchical Condition Categories Derived From Medical Records

PacifiCare Comments

PacifiCare stated that using HCCs identified from medical records as inputs in computing
payment errors was inappropriate because (1) HCCs derived from medical records are not the
same as HCCs derived from claims data; (2) HCCs derived from medical records were not the
appropriate input for the CMS model used to determine capitation payments; and (3) our audit
results did not account for error rates inherent in Medicare FFS data, specifically the level of
disparity between FFS claims data and FFS medical record data and its potential impact on MA
payments.

Office of Inspector General Response

According to section 6.5 of the 2007 Participant Guide and section 5.5 of the 2006 Participant
Guide, “reported diagnoses must be supported with medical record documentation.” We used
medical records as inputs to support HCCs because medical records must support the diagnoses
that were used to assign the HCCs.

Our methodology to recalculate the MA payments was appropriate because we used the CMS
model to calculate PacifiCare’s monthly contract-level capitation payments. An analysis to
determine the potential impact of error rates inherent in Medicare FFS data on MA payments
was outside the scope of this audit. However, in its Final Rule, “Medicare Program; Policy and
Technical Changes to the Medicare Advantage and the Medicare Prescription Drug Benefit
Programs,” CMS stated that there may be potential merit in further refining the calculation of
payment errors that result from postpayment validation efforts. 10 Given the potential impact of
this error rate on the CMS model we used to recalculate MA payments, we modified our first
recommendation to seek a refund only for the overpayments identified for the sampled
beneficiaries. We made an additional recommendation that PacifiCare work with CMS to
determine the correct contract-level adjustments for the projected overpayments.

Centers for Medicare & Medicaid Services Model

PacifiCare Comments

PacifiCare stated that (1) while accurate for large populations, the CMS model was not designed
to produce results for individual beneficiaries and (2) the confidence intervals we computed were
understated. PacifiCare said that the CMS model was designed to make cost predictions for the
average beneficiary in a relatively large subgroup and that the prediction for any individual
beneficiary may be significantly in error. PacifiCare stated that the confidence interval reflects
only the sampling variance in the overpayment (underpayment) amounts and does not
incorporate uncertainty in the CMS model used to forecast expenditures for HCCs.




10
     75 Fed. Reg. 19749 (April 15, 2010).


                                               10
Office of Inspector General Response

Our use of the CMS model and supporting medical records was consistent with the method CMS
used to compute PacifiCare’s monthly contract-level capitation payments. We agree that the
CMS model is designed to make a cost prediction for the average beneficiary in a subgroup, and
we have never asserted that the payments we recalculated after adjusting the risk scores based on
validated HCCs were any more or less accurate for a given beneficiary than what the CMS
model was designed to predict.

CMS officials told us that capitated payments made to MA plans for individual beneficiaries are
fixed and have never been retroactively adjusted. We estimated the overpayment amount using
the midpoint. Any attempt on our part to modify the CMS model to calculate PacifiCare’s CY
2007 payments would have been speculative and beyond the scope of our audit.

Members Who Terminated Coverage or Changed Status

PacifiCare Comments

PacifiCare stated that we did not account for the differences between the sample population and
the larger extrapolation population. Specifically, PacifiCare stated that we did not include
members who moved to different plans or died during the 2007 payment year in the larger
population. In addition, the larger population included beneficiaries whose status had changed
during the payment year (e.g., transferred to institutions or started hospice care or dialysis).
According to PacifiCare, determining an overpayment based on these members was
inappropriate because their capitation payments were calculated using a different methodology
from that used for the general membership.

Office of Inspector General Response

As we explain in Appendix A, we limited our population to the 62,987 beneficiaries who were
continuously enrolled from January 2006 through January 2007 and had at least 1 HCC during
the audit period.

Audit Processes and Standards

PacifiCare Comments

PacifiCare stated that the Office of Inspector General (OIG) was required by law and by our
audit objective to follow CMS guidance and regulations governing Risk Adjustment Data
Validation (RADV) audits in conducting this audit. PacifiCare said that we failed to follow
CMS processes and, in doing so, exceeded our authority and arrived at inaccurate results that
contradict CMS practices, stated policies, and methodologies. Also, PacifiCare stated that we
should have used the 2006 Participant Guide to evaluate PacifiCare’s compliance with CMS
requirements.




                                               11
Office of Inspector General Response

We are not required by law to follow CMS guidance and regulations governing RADV audits.
Pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are intended to provide
an independent assessment of HHS programs and operations. We did not perform an RADV
audit pursuant to the guidelines that CMS established in its 2006 and 2007 Participant Guides.
Those reviews are a CMS function. We designed our review to determine whether diagnoses
that PacifiCare submitted to CMS for use in CMS’s risk score calculations complied with
Federal requirements. Regarding CMS’s 2006 Participant Guide, we did base our findings on
criteria set forth in CMS’s 2007 Participant Guide. After our review, we compared the data
submission criteria in both the 2006 and 2007 Participant Guides and determined that there were
no substantial differences in the criteria upon which our results were based.

Incidental Hierarchical Condition Categories

PacifiCare Comments

PacifiCare stated that we did not consider additional HCCs that were identified incidentally
during the audit in accordance with CMS practices. Specifically, PacifiCare said that we did not
credit it for HCCs that had been documented in the medical records and identified during the
medical review but not reported to CMS. PacifiCare added that it would have received credit for
these HCCs under established CMS standards and practices.

Office of Inspector General Response

Our objective was to determine whether the diagnoses that PacifiCare submitted to CMS for use
in CMS’s risk score calculations complied with Federal requirements. Additional diagnoses that
were not originally reported to CMS were outside the scope of our audit.

Two Levels of Review

PacifiCare Comments

PacifiCare stated that our review of medical records did not include certain processes included in
CMS’s 2006 and 2007 Participant Guides. PacifiCare said that when conducting RADV audits,
CMS contracts with two independent medical review contractors to conduct its medical reviews;
OIG does not. During CMS medical reviews, one contractor conducts the initial medical review
of medical records. Discrepancies identified by this contractor are subject to another review by a
second contractor. PacifiCare added that the use of two contractors mitigates discrepancies and
stated that our process did not provide the same procedural protections. In addition, PacifiCare
stated that if OIG’s review did not validate an HCC, it was included in a group from which a
random sample of only 5 percent of the HCCs were chosen to be reviewed by a second medical
reviewer.




                                               12
Office of Inspector General Response

As stated previously, we did not design our review to be an RADV audit, and we are not required
to follow CMS’s RADV audit protocol. Although we did not have two independent contractors
review PacifiCare’s medical record documentation, we ensured that our medical review
contractor had an independent review process in place. If the initial medical reviewer identified
discrepancies, another medical reviewer, independent of the initial review, performed a second
review. If the results of both reviews differed, the contractor’s medical director made the final
determination. If we found that medical records did not support one or more assigned HCCs, we
asked PacifiCare to submit additional medical records. Any additional records PacifiCare
provided went through the process described above.

Also, we accepted medical records PacifiCare provided in addition to the “one best medical
record.” All HCCs that were not validated during the initial medical review were subjected to
the second medical review. The random sample of 5 percent of HCCs PacifiCare cites was an
additional random sample of all HCCs selected for review. This sample helped ensure accuracy
and consistency with the results reported.

Physician Signature Attestations

PacifiCare Comments

PacifiCare stated that we did not follow CMS’s audit methodology because we refused to accept
physician signature attestations. PacifiCare added that, as a result, we identified 14 HCCs that
were invalid, in whole or in part, because they did not have physician signatures and credentials.

Office of Inspector General Response

We did not initially accept physician attestations because the 2007 Participant Guide, section
7.2.4.5, and the 2006 Participant Guide, section 8.2.4.4, stated that documentation supporting the
diagnosis must include an acceptable physician signature. However, pursuant to a 2010 change
in Federal regulations (42 CFR § 422.311), we accepted attestations and revised our findings
accordingly.

Individual Payment Adjustments

PacifiCare Comments

PacifiCare stated that neither the 2006 nor the 2007 Participant Guide discussed extrapolating
“overpayments” to the contract level using risk-adjusted discrepancies discovered in an RADV
audit. PacifiCare also stated that before the application of the pilot project, 11 CMS made
payment adjustments only for those enrollees sampled.



11
     In July 2008, CMS announced a pilot project to more extensively audit MA organizations.



                                                         13
Office of Inspector General Response

As stated above, pursuant to the Inspector General Act of 1978, 5 U.S.C. App., our audits are
intended to provide an independent assessment of HHS programs and operations. We modified
our first recommendation to seek a refund only of the overpayments identified for the sampled
beneficiaries. We made an additional recommendation that PacifiCare work with CMS to
determine the correct contract-level adjustments for the projected overpayments.

Invalidated Hierarchical Condition Categories

PacifiCare Comments

PacifiCare stated that it had conducted its own review of the medical records from this review
and concluded that at least 17 of the invalid HCCs were supported by the “one best medical
record” submitted. PacifiCare stated that with the use of two levels of review (as afforded by
CMS’s RADV process), these HCCs would likely have been validated. PacifiCare also stated
that it had evaluated each of the 44 beneficiaries who had 1 or more HCCs invalidated during the
data collection period and that many of them were actually treated for the health conditions
reported in the HCCs. PacifiCare stated that multiple records should be considered together
when verifying a beneficiary’s HCC.

Office of Inspector General Response

We ensured that our medical review contractor had an independent review process in place to
provide two levels of review. We also accepted medical records provided by PacifiCare in
addition to the “one best medical record” we initially requested to help validate HCCs. CMS
developed the CMS model with inpatient, outpatient, and physician records used to support
HCCs. Therefore, we accepted and reviewed only those types of records for CY 2006 dates of
service.

Policies and Procedures

PacifiCare Comments

In response to our recommendation for improving its controls, PacifiCare stated that it largely
used automated systems for obtaining, processing, and submitting diagnoses to CMS and that it
had documented system protocols for processing data through its systems. Also, PacifiCare
stated that it used the chart validation process as a validation tool for codes related to 2006 dates
of service.

Office of Inspector General Response

PacifiCare officials explained to us that the automated systems were used only to verify the
validity of the Coding Guidelines. In addition, PacifiCare officials told us that chart validation
was not used routinely and was used only to validate diagnoses that PacifiCare received from
providers that PacifiCare paid on a capitated basis.



                                                 14
APPENDIXES
                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

SAMPLING FRAME

The sampling frame consisted of 62,987 beneficiaries on whose behalf the Centers for Medicare
& Medicaid Services paid PacifiCare of Texas (PacifiCare) approximately $827 million in
calendar year (CY) 2007. These beneficiaries (1) were continuously enrolled under contract
H4590 during all of CY 2006 and January of CY 2007 and (2) had a CY 2007 risk score that was
based on at least one Hierarchical Condition Category.

SAMPLE UNIT

The sample unit was a beneficiary.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected a sample of 100 beneficiaries.

SOURCE OF THE RANDOM NUMBERS

We used Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in the sampling frame from 1 to 62,987. After
generating 100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used Office of Inspector General, Office of Audit Services, statistical software to estimate
the total value of overpayments.
   APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                        Sample Results
                                       Number
Sampling   Sample     Value of     of Beneficiaries     Value of
 Frame      Size      Sample       With Incorrect     Overpayments
  Size                                Payments
 62,987     100      $1,143,851          43             $183,247



              Estimated Value of Overpayments
    (Limits Calculated for a 90-Percent Confidence Interval)


             Point estimate       $115,422,084
             Lower limit            82,129,887
             Upper limit           148,714,281
                                                                                Page 1 of 2


                 APPENDIX C: DOCUMENTATION ERRORS IN SAMPLE

A    Unsupported diagnosis coding
B    Unconfirmed diagnosis



                      Hierarchical Condition Category                  A   B   Total Errors
 1   Protein-Calorie Malnutrition                                      X             1
 2   Vascular Disease                                                  X             1
 3   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
 4   Vascular Disease                                                  X             1
 5   Congestive Heart Failure                                          X             1
 6   Ischemic or Unspecified Stroke                                    X   X         2
 7   Vascular Disease                                                  X             1
 8   Seizure Disorders and Convulsions                                 X             1
 9   Diabetes With Renal or Periphery Circulatory Manifestation        X             1
10   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
11   Congestive Heart Failure                                          X   X         2
12   Polyneuropathy                                                    X             1
13   Congestive Heart Failure                                          X             1
14   Diabetes With Neurologic or Other Specified Manifestation         X             1
15   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
16   Breast, Prostate, Colorectal and Other Cancers and Tumors         X             1
17   Polyneuropathy                                                    X             1
18   Congestive Heart Failure                                          X             1
19   Congestive Heart Failure                                          X             1
20   Ischemic or Unspecified Stroke                                    X             1
21   Vascular Disease                                                  X             1
22   Rheumatoid Arthritis and Inflammatory Connective Tissue Disease   X             1
23   Hip Fracture/Dislocation                                          X             1
24   Diabetes Without Complication                                     X             1
25   Diabetes With Renal or Periphery Circulatory Manifestation        X             1
26   Nephritis                                                         X             1
27   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
28   Major Depressive, Bipolar, and Paranoid Disorders                 X             1
29   Angina Pectoris/Old Myocardial Infarction                         X             1
30   Breast, Prostate, Colorectal and Other Cancers and Tumors         X             1
31   Chronic Obstructive Pulmonary Disease                             X             1
32   Diabetes With Ophthalmologic or Unspecified Manifestation         X             1
33   Ischemic or Unspecified Stroke                                    X             1
34   Diabetes With Neurologic or Other Specified Manifestation         X             1
35   Polyneuropathy                                                    X             1
36   Chronic Obstructive Pulmonary Disease                             X             1
37   Breast, Prostate, Colorectal and Other Cancers and Tumors         X             1
38   Congestive Heart Failure                                          X             1
39   Vascular Disease                                                  X             1
40   Ischemic or Unspecified Stroke                                    X             1
                                                                           Page 2 of 2




                      Hierarchical Condition Category            A    B   Total Errors
41   Chronic Obstructive Pulmonary Disease                            X         1
42   Polyneuropathy                                              X              1
43   Specified Heart Arrhythmias                                 X              1
44   Vascular Disease                                            X              1
45   Chronic Obstructive Pulmonary Disease                       X              1
46   Lung, Upper Digestive Tract, and Other Severe Cancers       X              1
47   Intestinal Obstruction/Perforation                          X              1
48   Nephritis                                                   X              1
49   Lymphatic, Head and Neck, Brain, and Other Major Cancers    X              1
50   Ischemic or Unspecified Stroke                              X              1
51   Diabetes With Ophthalmologic or Unspecified Manifestation   X              1
52   Bone/Joint/Muscle Infections/Necrosis                       X              1
53   Vascular Disease                                            X              1
54   Chronic Ulcer of Skin, Except Decubitis                     X              1
55   Vascular Disease                                            X              1
56   Vascular Disease                                            X              1
57   Bone/Joint/Muscle Infections/Necrosis                       X              1
58   Lymphatic, Head and Neck, Brain, and Other Major Cancers    X              1
     Total                                                       57   3       60
                                                                                                                              Page 1 0f38

                  APPENDIX D: PACIFICARE COMMENTS 





                                                                                      OVkTIONS
                                                                          ~... A UnitedHea1th Group Company




September 10, 2010


Patricia Wheeler
Regional Inspector General for Audit Services
Office of Audit Services, Region VI
1100 Commerce Street, Room 632
Dallas, TX 75242


Dear Ms. Wheeler:

        On behalf of PacifiCare of Texas, Inc. and its affiliate UnitedHealth Group (collectively
"PacifiCare"), we are writing in response to the                u.s.   Department of Health and Human Services
("HHS"), Office of the Inspector General           (''~IG''),   draft report dated March 31, 2010 entitled "Risk
Adjustment Data Validation of Payments made to PacifiCare of Texas for Calendar Year 2007 (Contract
Number H4590)" (hereinafter, "Draft Report").                   PacifiCare welcomes the opportunity to provide
comments on the Draft Report before it is issued, and appreciates the dialogue and exchange of
information the OIG has afforded PacifiCare during the audit process.                      However, PacifiCare strongly
disagrees with the findings in the Draft Report and believes that the analysis, methodology, and
extrapolation used by the OIG in its audit are. flawed.
        As you are aware, PacifiCare is one of the largest providers o~ Medicare                  Ad~antage    ("MA") plans
in the U.S., and has participated in the Medicare Part C program as either a Medicare+Choice plan or an
MA plan since the inception of Medicare Part C.                  PacifiCare has worked with both the Centers for
Medicare & Medicaid Services ("CMS") and the O!G on                    Il)a~J:' ~asions    and   h~s   strived to be a   v~ l_ued

business partner with the government to ensure the program's success. However, PacifiCare is concerned
about the findings summari zed in the Draft Report, which conclude that certain diagnoses that PacifiCare
submi tted to CMS for use in CMS's risk score calculations did not comply with the requirements of the
CMS's 2007 Risk Adjustment Data Training for Medicare-Advantage Participant Guide (the "2007
Participant Guide"). The OIG detcnnined that 62 risk sco.res for 44 members were invalid because (i) the



                                       Protected From Disclosure Under Federal law 

                             Exempt from the Freedom of lnfonnation Act See 5 U.S.c. §552(b) 

                         Contains Confidential CommerciaVFinancial and Other Protected lnfomlation 

                                                                                                              Page 2 of38




documentation did not support the associated diagnosis obtained from the coding used on the claims; (ii)
the documentation did not include the provider's signature or credentials; or (iii) the diagnosis was
uncertain based on the coding contained on the claims.
         We believe that the OIG erred in its analysis and conclusion for several reasons, which we detail
below, including:
    • 	 The OIG's sample of 10.0 beneficiaries is not fully representative of beneficiaries among the
        118,000 members of the plan, nor is it fully representative of the 63,000 members who had a
         risk score based on at least one Hee. Only 40 of the 7jl Hees that appear in the
         population are represented in the audit sample. As such, the ~IG's extrapolation of
         invalidated diagnosis applies to 30 Bees that appear in the population, but for whom no
         beneficiaries were audited.

    • 	 The underlying process of translating ICD·9 diagnosis codes reported on claims into BCCs
        (approach used for payment) versus employing validation contractors and a reconciliation
        process to review medical records (approach used in audit) will likely result in
        inconsistencies between BeCs derived from these two sources. BeCs determined from
        lCD·9 diagnosis codes reported on claims are likely to be different from RCCs derived from
        medical records and it is unreasonable to assume these hvo sources will result in the same
        BCCs. These differeuces are confirmed by examples of BCCs that are unsupported in the
        RADV audit of medical records, but are supported by multiple claim records by multiple
        providers. As a result, using this audit methodology to compute overpayments is
        fundamentally flawed and inappropriate.

    • 	 Tbe OIG utilizes tbe eMS-Bee risk .djustment payment model (referred to as the " Pope
        model" I!) to audit tbe individual beneficiaries sampled from the population. The Pope
        model was not designed to make accurate predictions of capitation payments for individual
        records, rather it was designed so that on payments on average compensate for the risk over
        a large group of beneficiaries. Given the high forecasting error associated with this model
        as acknowledged by its authors,2f the variation between actual and forecasted expenditures
        for the OIG sample may differ significantly across random samples drawn from the
        population.

    • 	 The OIG did not follow eMS's audit methodology sct forth in both tbe 2006 and 2007
        Participant Guides to conclude that some of the diagnoses that PacifiCare submitted to
        eMS for risk score calculations were invalid.

    • 	 PacifiCare conducted its own review of the medical records tbat were the subject of this
        review, and concluded that many of the Bees invalidated by OlG were, in fact, valid. At
        the very least, the OIG should correct the invalid Hees and credit PacifiCare with the
        incidental HeCs documented in the submitted medical records before considering whether
        to issue a final report.



If Pope, a.c., Kautter, I " Ellis R.P., et a1.: Risk Adjustment of Medicare Capitation Payments Using the 

CMS-HCC ModeL Health Care Financing Review 25(4): 119 14 1, Summer 2004. 

v Pope et . 1., (2004), p. 13 1. 

                                                                2
                                          Protected From Disclosure Under Federal Law 

                               Exempt from the Freedom of Infommtion Act. See 5 U.S.C. §552(b) 

                           Contains Confidentia l CommerciaL/Financial and Other Protected Infonnation 

                                                                                                                        Page 3 of38




                                                                                                                   ll
          Accordingly, we request that the CIG withhold finalizing its repOit or substantially revise it.               In
the alternative, we ask that the    oro attach these comments as an appendix to any fina l report issued.               If
CIG intends to fina lize the report, we request that DIG keep the final report confidential. III addition to
this response letter, Pac ifiCare reserves the right to submit supplemental materials either to the 010 or to
CMS.

     I.   BACKGROUND

          Congress created the Medicare+Choice program through the establishment of Medicare Part C as
part of the Balanced Budget Act of 1997." Although private health plans had contracted with Medicare
on a limited basis to provide services to eligible patients since the 19705, the Medicare+Choice program
was created to significantly increase the re lationship between private health plans and Medicare. Prior to
1997, payments to health plans for managing Medicare recipients' health care were based on fee-for­
service ("PFS") expenditures, adjusted by geographic areas and certain demographic factors (age, gender,
working status, and Medicaid eligibility).             Medicare+Choice began a transition from a demographic­
based reimbursement model to a system using a patient's actual health status to estimate future health care

costsY
          In 2003, Congress revamped the Medicare Part C program through the creation of Medicare
Advantage ("MA"l. Under MA, health plans are reimbursed a capitated, risk-adjusted monthly fee for
each enrollee based upon each patient's overall health. Enrollees are assigned a risk score that reflects
their health status as detennined from data submitted during the previous calendar year.                     MA ' s risk
adjustment methodology relies on enrollee diagnoses, as specified by the International Classification of
Disease, currently the Ninth Revision Clinical Modification guidelines ("'ICD-9") to prospectively adjust
capitation payments for a given enrollee based on the health status of the enrollee. Diagnos is codes are
used to determine the risk scores, which in turn determine risk adjusted payments for enrollees.
          The current risk adjustment model employed in                 a~justing     MA plan payments is known as the
CMS Hierarchical Condition Category ("CMS- HCC") model." The CMS-HCC model categorizes ICD-­
9 codes into disease groups called Hierarchical Condition Categories, or HCCs. Each HCC includes
diagnosis codes that are related clinically and have similar cost implications. In 2007, a demographic




11  If the QIG substantiaJly revises its report, PacifiCare requests the opportunity to review the modified draft before
it is released. 

41 Pub. L. No. 105-33 . 

31 Sherer R. The failure of Medicare+Choice. Geriatric Times 2003;4:4-5. 

61 Pope et aI., (2004). 


                                                                3
                                           Protocted From Disclosure Under Fcdernl Law 

                                Exempt froOllhc Freedo m oflnfonnation Act. See 5 U.S.C. §552(b) 

                            Contains Con fidential CommerciaVFinancial and Other Protected lnfonnation 

                                                                                                               Page 4 0f38




data-only payment method was completely phased-out for MA plans, and 100 percent of each payment
for an enrollee was ri sk-adjusted. 7I
         As CMS phased-in the application of health status risk adjustments from 2000 through 2007, and
the financial impact of risk adjustment data became lUorc significant and the complexities of the process
became more apparent, eMS promulgated new rules regarding risk adjustment data collection. Prior to
August 2008, MA organizations ("MAOs") received instruction regarding the submission of risk adjusted
data through eMS 's annual Participant Guides. For the 2007 plan year, where payments were made
based on 2006 dates of services, MAOs relied primarily on the Participant Guide from 2006; the 2007
Participant Guide, which contained several changes from the 2006 Participant Guide, was not released
until December 2007.
        In August 2008, CMS codified the requirements regarding the submission of risk adjusted data
that generally mirrored the obligations set fo rth in the Participant Guides.81 More recently. in April 2010,
eMS finalized regulations governing its risk adjustment data validation C'RADV'') dispute and appeals
procedures, which in some instances fonnalized processes eMS had adopted in practice but had not
established in regu lation,9f This final rule also indicated eMS's intent to develop and release for public
comment its RADV audit and extrapolation methodology, which is still under development. Hv These
dispute and appeals procedures recognize the complexity of the risk adjustment program and the need for
clear methodologies and avenues for dispute resolution to be established.
         Another significant development in the changing authorities goveming risk adjustment data was
e MS 's announcement in Ju ly 2008 of a pi lot project to more extensively audit MA organizations for
payment year 2007 based on calendar year 2006 payment data. I II [n this notice. e MS announced its
intent to make contract-l evel payment adjustments using payment error fmdings from a sample of
enrollees from selected contracts. This was a major change to eMS's RADV audit approacb; it signaled
for the first time e MS 's intent to recover contract-level payments from MAOs. Prior to this initiative,
payment adjustments were limited to enrollee-level adjustments for those enrollees sampled in the
payment validation audit. l2f In light of the potential impact of contract-level payment adjustments, e MS


11CMS phased in the application of risk adjustments to payments from 2000 to 2007, with an inGreasing percentage 

of the montWy capitation payment subjected to risk adjustment each year. In 2007 , 100 percent of payments to 

MAOs became risk-adjusted based on enrollee health slatus. 42 U.S.C. § 1395w-23(a)(I)(C). 

v 42 C.F.R. § 422.3 10; 73 Fed. Reg. 48757 (Aug. 19, 2008). 

w 75 Fed. Reg. t9678, t9806 (Apr. t5, 2010). 

101 Id. 

111 See CMS Memorandum, Medical Record Request Ins /ructions/or the Pilot Calendar Year 2007 Medicare Pllrt 

C Risk Adjustment Data Validation, Iuly 17, 2008. 

121 74 Fed. Reg. 56634. 54674 (Oct. 22, 2009). We note that, to our knowledge, e MS has not ex trapolated payment
errors at the contract-level for MAOs that have been subject to RADV audits as part of the pilot project.
                                                                4

                                          Protected FroEn Disclosure Under Federal Law 

                               Exempt from the Freedom of Inrormation Act. See S U.S.C. §SS2(b) 

                           Contllins Confidential CommcrcinVFinnncial and Other Protected Inronnlltion 

                                                                                                              Page 5 of38




developed several new policies. lmportantly, eMS allowed MAOs selected for contract-level samples to
submit physician-signature attestations for physician and outpatient medical records. III
           As demonstrated by these evolving authorities, there has been great flux in the development of
risk adjustment data collection policies and regulations over the past few years. The OlG failed to
consider this changing landscape and the complexities of risk adjusted payments in its audit and analysis.
In addition, the 010 did not fo llow certain procedures that CMS applied to RADV audits for risk adjusted
data collected during the data collection period. Detailed below are some of the specific factors that the
O IG failed to consider when conducting the audit and calculating an alleged overpayment amount, and
some examples where the OIG faiJed to fo llow CMS processes that results in inaccurate fmdings .

      II. ERRONEOUS AUDIT AND EXTRAPOLATION METHODOLOGIES

           Although the a IG asserts that it used generally accepted auditing standards, it did not.         In
conducting its audit and extrapolating an overpayment amount, the Ola disregarded several crucial
aspects of risk adjustment payments that inappropriately biases the results and reflects an exaggerated
alleged overpayment amount.
               A. Statistically Valid Random Sample
           In order for the results of an audit sample to be reliably extrapolated to the popUlation, the sample
itself must be both random and representative of the population. The samp le of tOO beneficiaries l41
uti lized by the   oro is not   fully representative of beneficiaries among the 11 8,000 members enrolled in
PacifiCare during the aud it period, nor is it fully representative of the 63,000 members who had a risk
score based on at least one HeC. Only 40 of the 70 RCCs that appear in the population are represented in
the RADV audit sample. As such, the O IO's extrapo lation of invalidated diagnosis applies to 30 HCCs
that appear in the population, but for whom no beneficiaries were audited, and therefore is not an accurate
representation of the population.
           There are at least two ways that the sample could have been drawn to ensure representativeness.
First, a larger sample would have a higher probability of drawing all of the HCCs that appear in the
population during the relevant period. A sample size of 100 is too small to account fo r the tremendous
diversity of the beneficiaries in the popu lation.
           Alternatively. the samples could have been stratified according to ACC. Stratification would
have involved dividing the population into subgroups, one for each HCC in the population. and then


III   See "MA and Part D Data: Who, What, Where, and How," page II (fom Hutchinson. 9/ 15/09 Slide Presentation 

to America's Health Insurance Plans ("AH fP"»; See also 75 Fed. Reg. 19678, 19742 (April 15, 20 10). 

141 Under established eMS standards, eMS generally draws a sample of at least 200 members when conducting an 

RADVaudit. 

                                                               5

                                           Protected From Disclosure UndL"r Federal Law 

                                E!tcmpt from the Freedom oflnfonnation Act. Sec 5 U.S.C. §SS2(b) 

                            Contains Confidential CommerciaVFinancial and Other Protected Infonnndon 

                                                                                                                    Page 6 of38




drawing a random sample of claims from each subgroup.                             There are a number of advantages to
stratification, notably a reduction in sampling variance relative to a s.imple random sample. In addition,
stratification is routinely employed for exactly the reasons suggested here: A si mple random sample,
particularly a small one, may not include enough of particular subgroups to ensure representativeness and
reliable statistical inference. A stratified sample allows for oversampling of relevant subgroups, which
are then reweighted according to their population frequency.
            In this case, the sample could have heen stratified so as to include at least one beneficiary for
each of the 70 HCCs in tile population to ensure that all of the relevant traits in the population are
represented. Of course, a sample of 100 would produce many strata with only one observation, but again
that is a reflection of the fact that a diverse population requires a larger sample in order to ensure
representativeness. The fact that the total number of sample points (100) is not much larger than the
number of proposed strata (70) is a strong indication that a sample size of 100 is inadequate for the
population under study.



                        Percent Frequencv of HCCs for Population and Sample
~ .~r-------------------------------------------------------------------
                                          (In Increasing Order of Population Frequency


25.""     +---------------------------------------------------------------- 11-11

20 ,1)%   j ----------------------------------------------------------------=
                          g popu!.1ic>n

                  .~-
" .. j------------------------------------------------------------ - ­



".. +--------------------------------------------------------­

 5 ~      j -----__----________________                 ~   ____________      ~   ____________=




                                                                   6

                                           Protected From Disclosure Under Federal law 

                                 Exempt from the Freedom orlnfommtion Act. See 5 U.S.C. §5S2(b) 

                             Contains Confidential CommerciaVFinancial and Other Protected Inronnation 

                                                                                                              Page 7 of38




        The chart above shows the frequency distribution among HCCs for both the population of 62,987
members with at least one HCC and in the audit sample. The match between the two distributions is
generall y poor, even among some of the HCCs that are more prevalent in the population. In particular,
the current sample of 100 does not even account for a significant number of HCCs in the population ­
fully 30 HCCs are nol represented in Ihe sample.
        Stratification would have ensured that the sample was more representative of the population. The
OJG did not design the sample to account for the diversity of beneficiaries in the population, at least with
regard to HCC. The lack of representativeness of the sample for the population in question significantly
reduces the reliability of the extrapolated overpayment determinations.


             B. 	 OIG's Audit and Extrapolation Metbodology Has No Grounding in eMS Policies
                  and Procedures
        Importantly, the OlG conducted this Audit, determined a payment error, detennined an
extrapolation methodology, and recommended a repayment amount using a methodology that has not
been vetted by CMS and on which MAOs have not had the opportun ily 10 comment. To date, CMS has
only made enrollee-level adjustments for those enrollees sampled in an RADV auctit under the 2006 and
2007 Participanl Guides.' >! On the heels of the new regulations thaI establish appeal righls for MAOs
subject to RADV audits, and given tbe significance of contract-level adjustments, CMS has declared that
it will implement three steps to ensure that the RADV process is transparent to audited MAOs and the
public. It.' First, CMS will incorporate an additional independent third party review to replicate and
validate the payment determinations that result in eMS ' s error calculation. The independent third party
will employ the same error-calculation criteria that will be used by e MS in preparing its initia l error
calculation. Second, e MS intends to publish its RADV methodology in "some type of e MS document ­
most likely a Medicare Manual. so that the public can review and provide conunent as it deems
necessary" before implementing. 171 Third, eMS will describe eMS's RADV methodology in each
audited organization's RADV Audit Report. ll11                 In addition, e MS has recognized that there are
complexities in va lidating risk adjusted payments and extrapolating discrepancies to the contract level.



LSI 74 Fed. Reg. 56634,54674 (Oct. 22 , 2009). As discussed in Section I, CMS announced its intention to make
contract-level payment adjustments using payment error findings from a sample of enrollees for those MAOs
selected to participate in the RADV pilot proj ect. CMS has not announced any extrapolation methodology and, to
our knowledge, CMS has nOl extrapolated payment errors to the contract-level against MAOs that have been subject
to RADV audits as part of the pilot project.
,& 75 Fed. Reg. 19678, 19746, 19753 (April 15, 2010).
L7I Id.

,~ 42 C.F.R. § 422.311(c)(3)(vi) ; 75 Fed. Rcg. 19678, 19746, 19753 (April 15, 2010) .
                                                              7

                                        Protected From Disclosure Under Fedcrallaw 

                              ExempLfrom Lhe Freedom of Info nnation AcL See 5 U.S.C. §552(b) 

                          Contains Confidential CommerciaVFinancial and Other Protected lnfonnation 

                                                                                                                    Page 8 of38




but has not yet revealed its methodology for doing so, and it is uncertain whether and when eMS will
begi n employing such measures.
             The OIG's RADV process and payment calculation reflected in the Draft Report fails to compl y
with two important steps 31IDounced by e MS.
                    • 	 The OIG did not follow an established CMS methodology to calculate payment errors.
                        Indeed, CMS has not proposed any methodology for calculating Part C payment errors ­
                        certainly none on which PacifiCare has had an opportunity to comment.                   OIG's
                        application of an extrapo lation methodology is therefore both premature and
                         inappropriate.
                    • 	 Further, the CIG did not adequately describe its own payment calculation and
                        extrapolation methodology - which must mirror the yet to be determined CMS
                        methodo logy- in the Draft Report nor did it describe the bases for any such
                        methodology.
             The OIO 's fai lure to follow eMS 's procedures in conducting the Audit and the lack of detail
regarding its payment calcul ation and extrapolation methodology result in a payment error calculation
that is not only premature and inappropriate, but also imprecise and fa ils to provide enough detail so as to
allow PacifiCare to challenge the             ~iG' s   findings. Until a payment error calculation and extrapolation
methodology is released by CMS and the public has an opportunity to comment on such methodo logy, it
is inappropriate for the 0 10 to recommend any contract-level adjustment.
                  C. 	 T he OIG's Aud it Model Does Not Reflect CMS's Payment Model
             Risk adjusted payments to MAOs are detennined based on the health risks posed by individual
beneficiari es. Each Medicare member is assigned an individual risk score, which is determined from
historical health ccnditions. Specifically, CMS primarily utilizes ICD·9 codes submitted on by treating
providers on claims in the previous year to compute the risk score and resulting payment for each
individual for the current year. CMS has adopted a methodology that translates ICD-9s into Hierarchical
Condition Categories (HCCs) by mapping the ICD·9s into Diagnostic Groups (DxGroups), which are
subsequently mapped into Condition Categories (CCs) based on the CMS-HCC risk adjustment payment
model. l91 A set of hierarchical conditions are then imposed on the ecs to obtain HCCs. I-ICCs are
computed as a function of ICD-9 codes, where various ICD-9 codes are mapped into Diagnostic Groups,
CCs, and finally HCCs.




' 91   Pope et ai. , (2004).
                                                                     8
                                              Protected From Disclosure Under Federal Law 

                                    Excmpt from the Freedom of Infonnation Act. See 5 U.S.C. §SS2(b) 

                                Conlains Confidential Commerci:;tVFinancial and Other Protected infonnation 

                                                                                                            Page 9 of38




            eMS also commissioned the development of a statistical risk adjustment payment model to
 predict members ' medical costs, which is used to determine MA risk adjusted payments. The model
 includes statistically estimated coefficients for HeCs, as well as gender, age, Medicaid/disabled
 indicators and interaction tenns.201 eMS uses the functional fonn and coefficients from the statistical
 estimation process to compute capitation payment for each beneficiary.
            In an effort to evaluate whether risk adjusted capitation amounts paid to MADs are accurate,
 e MS uses a RADV audit process which, like the risk adjustment payment model, relies on the predictions
 from the Pope model. A sample of beneficiaries is selected from an MAO and specific contract, and
 eMS evaluates whether the payment HCCs assigned to each individual are supported by medical records
 fro m the previous year. MAOs must submit to CMS the "one best medical record" that supports each
         2I1
 HCC .
            One of the fundamental premises of this audit process is that HCCs derived from medical records
 should be equal to HCCs derived from claims submitted by treating providers, and differences between
 HeCs derived from medical records and HCCs derived from claims are "payment errors," and any
 overpayment must be refunded to CMS. However, we suggest that differences between HCCs derived
 from medical records and HCCs derived from claims are not payment errors, but rather are the results of
 two different inputs into the risk adjustment payment model: claims and medical records . Furthermore, 

. since the payment model is estimated based on HCCs derived from claims, we believe it is inappropriate 

 to use HCCs from medical records as model inputs to compute capitation amounts for the following two 

 reasons:
                                 1) 	 Bees derived from medical records are not the same as HCCs
                                      derived from claims data

            During the OIG RADV audit, the OrG's validation contractors determined whether each HCC
 derived primarily from claims data submitted for each member was supported or not supported by the
 MAO-submitted "one best medical record."                   HCCs determined from claims submitted by treating
 providers are likely to be different from HCCs derived from validation contractors and medical records.
 Studies have shown that the diagnoses contained in medical records and diagnoses identified in claims
 are, in practice, inconsistent. 2v This inconsistency, that is, the discrepancy between HCes derived from
 claims data and HCCs derived from medical records, has been tenned the "error rate" in the industry.


 '"' Pope e( al., (2004).
 2 11 Centers for Medicare & Medicaid Services: CY2007 eMS Risk Adjustment Dala Validation MA Organization
 Training, PowerPoint Presentation, Baltimore, Maryland, October 23, 2009).
 221 See e.g., Measuring Diagnoses: ICD Code Accuracy, Health Service Research 2005 October; 40(5 Pt 2): 1620­
 1639). This article can be obtained at: http://www.ncbi.nlm.nih.gov/pmclarticlesIPMCI361216/.
                                                                9

                                           Protected From Disclosure Under Fodeml Law 

                                Exempt from the Freedom of Infonnation Act. Scc 5 U.S.C. §552(b) 

                            Contains Confidential Commercial/Financial and Other Protected Infonnation 

                                                                                                                       Page 10 of38




         HCCs identified from medical records are not likely to be equal to HCCs determined fTOm claims
data for two reasons. First, infonnatioll contained in claims data is not equal to the information contained
in medical records. Second, the process used to develop HCCs from medical records is different from the
process used to determine Hees from claims data.
         In many instances, coding and medical records contain different information. Reasons include:
             o 	 Lack of documentation in either claims or medical records;
             o 	 ambiguities in coding specific conditions;
             o 	 errors in coding or medical record errors; or
             o · 	differences in interpretation of medical notes including lab results.
         Discrepancies and errors in diagnosis codes are well docwnented (See Appendix A for a summary
of research). eMS conducts regular cod ing audits and reports coding discrepancies and errors ?31 Authors
of the CMS -HCC risk adjustment payment model acknow ledged the presence ofjudgment in codjng and
coding errors: "Concern about the quality of diagnostic reporting is the greatest in phys ician offices,
where the diagnoses have not heretofore affected payment, and recording of diagnoses is less rigorously
practiced than in hospitals." 241 Although efforts to reduce coding errors are important, errors are unlikely
to ever be completely eliminated as long as cQding includes human interpretation and judgment. and data
entry.
         In addition, the process of identifying HCCs from claims data is very different than the audit
process.   HCCs from claims are derived by mapping CCD-9s through diagnosis groups, condition
categories, and applying hierarchies to anive at HCCs, whereas HCCs derived from medical records are
detennined using verification contractors and a rule-based reconciliation process.                           These are very
difference methods for detennining HCCs and process differences are likely to account for
inconsistencies in HCCs.
                               2) 	   [fees derived from medical records are not the appropriate input
                                      for the model to compute capitation payments

         The statistical model developed to detennine capitation payments was developed based on HCCs
ident ified from ICD_9s. 2S1 In statistical tenns, the data generation process for HCCs derived from claims
data is very different from the data generation process for HCCs derived from medica l records. As a
result, it is inappropriate to use one HCC methodology in a model deyeloped fo r the other. Furthennore,
there is no assurance that forecasted expenditures are accurate or even unbiased. ICD~9 errors and coding


231See http://www.cms.gov/apps/er report. 

W  Pope et aI., (2004), p. 12\. 

'" Pope et aI. , (2004). 

                                                               10

                                         Protected From Disclosure Under Fedeml Law 

                              Excmpt rrom the Freedomor Infonnation Act See 5 U.S.C. §552(b) 

                          Contnin~ Confid("'lltial COlllmerciaVFinanciat and Other Protccted Inrom18tion 

                                                                                                                      Page 11 of38




patterns due to ambiguities and judgment are implicit in the model where HCCs are derived from claims
data. As long as the errors and coding paUerns are consistent between the model estimation data and the
forecast period data, this model will continue to accurately forecast medical expenditures.
           However, if eMS wishes to detennine payments based on a statistical model where HCCs are
derived from medical records, then a statistical model utilizing this framework should be developed from
the ground up. Tills would require developing a sample of data using verification contractors and the
reconciliation process to obtain HCCs from medical records. Estimation of a statistical model that uses
HCCs derived from medical records as independent variables and medical expenditures as the dependent
variable would be required.        The functional fOtm, including statistically signi fic ant HCCs, and the
estimated coefficients would likely be different between the two models based on how HCCs were
derived.
        The precise relationship between HCCs derived from medical records and HCCs derived from
claims data is not clear without further research. HCCs derived from medical records could be biased or
unbiased with respect to HCCs derived from claims data. Further, even if HCCs derived from medical
records is an imprecise, but unbiased estimate of HCCs derived from claims data, the CMS audit policies
including (i) inability to introduce new HCCs, (ii) "one best medical record," and (iii) the exclusion of all
beneficiaries with no HCCs from the audit would al1 result in a bias toward decreasing the number of
HCCs and lower capitation payments.              Given the inexact relationship between HCCs derived from
medical records and HCCs deri ved from claims data and the one-sided implementation of the audit rules
(Le., elimination of al l opportunities to increase number of HCCs), audits will almost always result in
equal or fewer HCCs and equal or lower capitation payments.
                               3) The OIG's Model Does Not Account for FFS Disparity

        CMS has recognized that it is necessary to " refine the error rate ca lculation" to account for any
error rates inherent in Medicare FFS data that affect MA error rates.uw                          The C IG disregarded this
important factor in reaching its conclusions. Unless and until eMS hones this process for determining
"error rates," which it is considering, it is inappropriate for the OIG to recommend a contract-level
payment amount. In parti cular, the audit and extrapolation methodologies employed in the OIG Audit are
fundamentally at odds with the MA risk adjustment payment model. The MA risk adjustment model was
developed using Medicare FFS claims data for the purpose of establishing "comparable" payments to
MAOs intended to represent an actuarial estimate of the risk present in MAO plan membership relative to
that of the Medicare FFS population.


'" 75 Fed. Reg. 19678, 19746, 19749 (April 15, 2010).
                                                              II

                                         Protected From Disclosure Under Federal Law 

                              Exempt from the Frccdom of Informal ion Act. See 5 U.S.c. §552(b) 

                          Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                                       Page 12 of38




        Given this correlation to FFS claims data; to achieve a fair and accurate result, the audit of MA
risk adjustment data using a medical record review must take into account the circumstances of the
underlying FFS data used to develop the model, specifically the recognized potential disparity between
the diagnoses reported by providers on claims, which were used in developing the model, and those fully
documented in medical records, which were not used in developing the model. To determine whether an
MA organization's payments accurately reflect what would be paid to treat a FFS population based on the
claims data submitted for the FFS population, the OIG needs to dctcnnine the Level of disparity between
the FFS claims data and the FFS medical record data, and the impact of translating that data in HCCs
based on the claims data. The OIG audit results do not reflect such a comparison. Instead, the 01G
recommends to adjust MA payments at the contract level based solely upon alleged coding errors in
member medical records without any consideration of the extent to which these alleged "errors" or
discrepancies are reflective of similar differences found in Medicare FFS.
            D. 	 The Risk Adjustment Payment Model Was Not Designed To Be Used to Make
                 Predictions For Individual Beneficiaries

        In the   oro   audit, a sample of 100 beneficiaries was drawn from a population of 118,000
beneficiaries in PacifiCare of Texas. The audit included using medical records to either "support" or "not
support" the existence of aU HCCs for the sample of 100 beneficiaries. By using the "supported" HCCs,
and employing the underlying statistically-developed risk adjustment payment model by Pope et al.,271 the
OIG recalculates MA payments for this sample. The recalculated expenditure is the amount that OIG
suggests should have been paid to PacifiCare for the sample for CY 2007. The difference between this
new value and what was paid is defined by          orG as overpayment (or underpayment).                Subsequently, tilis
difference is extrapolated to the population of 62,987 beneficiaries to compute the total overpayment.
        While accurate for large populations, the model developed by Pope et al. to assign HCCs and
predict costs was not designed to produce results for individual beneficiaries. The regression equations in
the risk adjustment payment model can be used to detennine the HCCs and make cost predictions for the
average beneficiary in a relatively large subgroup, but there is substantial unexplained variation among
beneficiaries not accounted for. The R-squared of the best model is under 13%, which is not surprising
s ince the model is based on rCD-9 codes rather than individual medical records. The prediction for any
individual beneficiary may be significantly in error. Inferences about the nature of specific elements of a
population based solel y upon aggregate statistics collected for the group to which those individuals
belong is commonly known as the ecological fallacy. This fallacy assumes that individual members of a


271Pope et al.: Risk Adjustment of Medicare Capitation Payments Using the CMS-HCC Model, Health Care
Financing Review 25(4), 119-141 , Summer 2004.
                                                             12

                                        Protected From Disclosure Under Federal UlW 

                             Excmpt rrom the Freedom of InfOnTllltion Act. See 5 U.S.G. §552(b) 

                         Contains Conridemial Commercial/Financ ial and Other Protected Infonnation 

                                                                                                                              Page 13 of38




group have the average characteristics of the group at large. For example, if a particular group of people
are measured to have a Lower average income than the general population, it is an error to assume that all
members of that group have lower income than the general population. For any given individual from
that group, there is no way to know if that persOIl has a lower than average income, average income, or
above average income compared to tbe general population. In the same way. predictions made utilizing
the Pope model should only be applied to large populations of beneficiaries to ensure that random but
significant differences among beneficiaries which are not captured by ICD-9 codes do not produce
predicted capitation payments that deviate dramatically from actual values. Indeed, in the Pope model. all
of the comparisons of predictive accuracy are made for large subcategories of beneficiaries, and even then
for some of those subgroups the model can under or overpredict by as much as 30 percent. 2S1
                Eo 	 The Error Rate of the Risk Adjustment Payment Model Should Be Incorporated In
                     Computing the Overpayment Confidence Interval

           Another result of using the risk adjustment model as an audit tool is that the confidence intervals
computed by the OIG auditor are understated, perhaps significantly. The O IG auditor computes a 90%
confidence interval lhat reflects extrapolation from the sample of 100 audited beneficiaries to the
population. However, this confidence interval reflects only the sampling variance in the overpayment
(underpayment) amounts, and does not incorporate uncertainty due to the risk adjustment payment model
used to forecast expenditures from HCCs. The aggregate error of this model, when applied to large
populations, is small relative to the aggregate capitation payments.                             However, as with all stati stical
models used to predict future health expenditures based on past health conditions, the predictive accuracy
of the model is relatively low for a small set of individuals. For a sample of 100, combining the forecast
variability with the sampling variability will increase the confidence interval relative to that proposed by
010.
           Using the data in the OIG report appendix, the sample mean of the difference between payments
based on JCD-9 derived from claims and payments based on JCD-9's derived from medical records is
$1,997 and the sample standard deviation is $3,562. The 90% confidence interval for tile population
mean is $ 1,997 +/- $585.8.               Extrapolating results gives the overpayment confidence interval of
[$88,546, 120, $162,988,333]. The 95% confidence interval is [$8l,032,858, $ 170,50 1,946].
           Details of these calculations and the replication (bootstrap) approach employed to obtain these
results is described in Appendix B. Additional work is needed to identify the most appropriate methods
for including model errors in the overpayment confidence interval. Although alternative approaches may
be more appropriate, model errors should be explicitly considered when extrapolating audit results to the

2U   Pope et aI. , (2004), Tables ES-3 through ES -6.
                                                                   13

                                            Protected From Disclosure Under Federal Uiw 

                                  Exempt from the Freedom of In ron nation Act. See 5 U.S.C. ~552(b) 

                              Contains Confidentilll ComlllerciaVFinancial lind Other Protected Infoonatio n 

                                                                                                                             Page 14 0f38




population. Furthermore, inclusion of model errors will result in a wider confidence interval for total
overpayments. At a minimum, finalization oftbe report would be inappropriate without further analysis.

  DL      THE OIG FAILS TO ACCOUNT FOR MEMBERS W HO TERMI NATED COVERAGE OR C HANGED
          STATUS
           In the Draft Report, the OIG extrapolates alleged overpayments from the 100 member sample to
the entire population of members who had at least one HCC and continuous enrollment from January
2006 through January 2007. However, this methodology does not account for differences between the
sample population and the larger extrapolation population.                         For example, the OlG did not consider
members who moved to different plans or passed away during the 2007 payment year in the larger
population to which the alleged overpayment has been extrapolated.                                In addition, thi s membership
includes beneficiaries whose status changed during the payment year (e.g., the members were transferred
to institutions, hospice or dialysis).            Extrapolation of an alleged overpayment to these members is
inappropriate because their capitation payments are calculated using a different rate methodology than is
used for the general membership. The 01G's methodology must account for these differences before
proposing any extrapolation.

  IV.     ERRONEOUS AUD IT PROCESSES AND STANDAR IlS

           The OIG is required, both by law29i and by the stated objective of its audit, to follow CMS 's
guidance and regulations goveming RADV audits in conducting this audit. However, the                              oro   failed to
follow CMS processes, and in doi ng so, exceeded its authority and arrived at inaccurate results that
contradict CMS practices and stated policies and methodologies. To start with, the OrG should have used
the 2006 Participant Guide as its benchmark against which to evaluate PacifiCare's compliance with
e MS 's requirements. Although lhe substance in the 2006 and 2007 Participant Guides are similar with
respect to RADV audits. CMS afforded MAOs greater latitude pursuant to the guiding principle
articulated in the 2006 Participant Guide in the submission of supporting medica l record documentation
than was granted in the 2007 Participant Guide, As noted above, the 2007 Participant Guide was not even
published until December 2007, yet the OIG as applied it to medical records that were created in 2006 for
purposes of this audit.
           CMS provided the following flexibility to MAOs subject to RADV audits per the guiding
principle reflected in the 2006 Participant Guide:
               The medica l record documentation must show that the HCC diagnosis was assigned
               within the correct data collection period by appropriate provider type (hospital
               inpatient. hospital outpatient, and physician) as defined in the eMS instructions for

291   5 U.S.CA App. 3, § 2.
                                                                   14

                                              Protected From Disclosure Urulcr Feder.ll law 

                                  Exempt fromlhe Freedom of Infonnation Act. See 5 U.S.C. §SS2(b) 

                              Contai ns Confidential CommcrciallFinancial and Other Protected InfOlmlltion 

                                                                                                                    Page 15 of38




              risk adjustment implementation. Ln addition, the diagnosis must be coded according
              to International Classification of Diseases, Ninth Revision, Clinical Modification
              ("ICD-9-CM") Guidelines for Coding and Reporting. MA orgallizatioll.l· will be
              allowed more flexibility, per the guidillg principle, in the submission of .IUlpporlillg
              medical record documentation wh en re.'iponding to a mediclIl record relfue~'t.301

Some specific examp les of how the OIG failed to follow CMS procedures include:
         A_       Incidental RCCs
         The OIG failed to consider add itional HCCs that were identified incidentally during the Audit in
accordance with CMS practices. Although CMS 's RADV process accounts for both underpayments aod
overpayments, the OIG did not take into consideration underpayments in the Draft Report. That is, e MS
will credit MAOs with additional HCCs that are identified during the medical review as being
docwnented in the medical record, but that had not originally been reported to CMS'" PacifiCare's
review of the medical records submitted to the OIG in support of the audited HCCs confinns that the
medical records also support seventeen (17) incidentaJ HCCs for certain members. HI Under established
CMS standards and practices, PacifiCare would receive credit for these HCCs in eva luating the impact of
any HCCs that OJa believes do not va lidate. Because the OIG has refused to consider these HCCs, its
analysis is contrary to CMS standards and its results are inaccurate.
         B.       Two Levels of Review
         The 0 1G denied Paci fiCare certain processes provided in both the 2006 and 2007 Participant
Guides. When conducting RADV audits, CMS contracts with two independent review contractors to
conduct medical record reviews. The milia! Validation Contractor (TVC) facilitates the process and
conducts the initial review of medical records. All identified discrepancies))! identified by the               rvc are
subject to a second, independent medical record review by the Second Val idation Contractor (SVC) to
confinn the discrepancy. The SVC receives any discrepant medical records from the IVC, confirms risk
adjustment discrepancies that are identified by the              IVe, and implements an appeals process.)41 The rvc




30{ 2006 Participant Guide, 8. 1.3. (EmphllSis lidded.)
1 1/Id.
12J Please see TAB I in the spreadsheet attached at Appendix C with member-<iiagnosis level detai llhat explains
why we believe PacifiCare should receive credit for certain incidental HCCs. Please note that the infonnation
contained in the attached spreadsheet is privileged and confidential, and protecled from disclosure under the
Freedom o flnformation Act, 5 U.S.C. § 522(c).
131 Data discrepancies can inc lude coding discrepancies, invalid medical records, or missing infonnation. See 2006
Participant Guide 8.2.5. 1, 2007 Participanl Guide 7.2.5.1.
JAI 2006 Participanl Guide, Seclion 8.1.6; 2007 Participant Guide, Seclion 7.1 .6.
                                                                 15

                                          Pro(cctcd From Disclosure Under Federal Law 

                               Exempt from the Freedom of Infonnation Act See 5 U.S.C. §SS2(b) 

                           Contains Confidential Comm~.,'rciaVFi nanc i al and Other Protcctc:d Information 

                                                                                                          Page 16 0f38




and SVC are blind to each other's findings.'" CMS shares any plan level findings to the selected MAOs,
which may include a response rate, data discrepancy rates, and risk adjustment discrepancy error rates,)6/'
        e MS's process for allowing two levels of review miti gates discrepancies due to inter-rater
reliability. That is, for any particular coder, there will be errors in the subjective interpretations of the
individual claims. In practice, different coders may reach different conclusions with regard to the same
claim. As such, a proper sampling design would dictate the inclusion of a sufficient number of claims for
each auditor (so that possible errors in the subjective interpretation of.c laims reviewed by that auditor are
averaged out) and the use of multiple coders (so that the nonnal expected variation among auditors is
averaged out). However, the 01G did not provide PacifiCare with the same procedural protections.
Instead, if an HCC did not did not validate und er the OIG' s review, it was incl uded in a group
from which only a 5% random sample was chosen to be reviewed by a second medical reviewer.
Moreover, it is unclear whether or not this second reviewer was independent from the first or
blinded as to the results of the first coder, as is the SVC tilat reviews discrepancies under CMS
processes.     The limited 5% review of risk adjustment discrepancies and the associated
relationship between the OIG reviewers further brings into question the accuracy of the OIG's
analysis and fmdings, as is evidenced by the conditions identified by PacifiCare that were in fact valid,
discussed in Section IV below.
        C.       Physician Signature Attestations
        The orG did not follow CMS's audit methodology by refusing to accept physician signature
attestations submitted by PacifiCare. The OIG determined that fourteen HCCs were invalid, in who le or
in part, due to missing physician signatures or credentials. For the pilot project RADV audits, where
payment errors could be extrapolated to the contract-level, CMS accepted pl)ysician-signature attestations
for physician and outpatient medical records that show that the physician and other practitioners had the
requisite signatures and credentials. 371        eMS permitted this additional information because it has
recognized that " foml over substance" errors should not be given as much weight as actual payment
errors. 3&' This was an important allowance for MAOs subject to the RADV pilot project, given the
intention to make contract-level payment adjustments using payment error findings from the selected


JSf See " Risk Adjustment Data Validation (RADV) and Prescription Drug Event Data Validation Program 


Overview" (Tom Hutc hinson Slide Presentation, accessed at 

htlp :/Iwww.iceforhealth.org/oodcastl20 100113 02 ICEConfl009 1ERiskAd jDataVal.pdf). 

361 2006 Partic ipant Guide. 8.2.6, 2007 Participant Guide, 7.2.6. 

37/ See "MA and Part 0 Data: Who, What, Where, and How," page 11 (Tom Hutchinson, 9/ 15/09 Slide Presentation 

to America's Health Insurance Plans ("AmP"»; See also 75 Fed. Reg. 19678, 19742 (April 15,20 10). 

381 75 Fed. Reg. 19678, 19749 (April 15, 2010). 

                                                              16

                                        Prol.ectcd From Disclosure Under Federal Law 

                             Exempt rrom the Freedom or lnfonnat;on Act.. See 5 U.S.C. §552(b) 

                         Contains Confidl.'lltial ConuncreiaVFimmcial and Other Protected Infoonation 

                                                                                                                 Page 17 of38




sample. The financial impact of the adjustments was recognized by eMS and such attestations were
required to avoid skewed, inaccurate results. Thus, at a minimum, the Ola should not reconunend
extrapolation of any all eged overpayment to the contract-level as part of this Audit where it does not
accept such attestations.
         D.       Individual Payment Adjustments
         Fi nally. and importantly, neither the 2006 nor the 2007 Participant Guides contemplate
extrapolating "overpayments" to the contract level using risk adjusted di screpancies discovered in an
RADV audit. Prior to the application of the pilot project, eMS made payment adjustments only for those
enrollees sampled in the payment validation as part of its routine validation process. Thus, the OIG
should not recommend extrapolation for any alleged overpayment to the contract-level as part of this
Audit, as the explicit scope of the review is to determine compliance with the 2007 Participant Guide.

      V. MANY OF THE CONDITIONS INVALLDATEO BY THE OJG ARE V ALLD

         In response to tltis audit, PacifiCare conducted its own review of the medical records that were
the subj ect of thi s review and concluded that at least seventeen (17) of the OIG's inva lidated HeCs were,
in fact, supported by the "one best medical record" submitted to the 0 10.39/ If some of the procedural
protections that CMS affords were in place, such as the use of two levels of review, we expect that these
HCCs would have been validated.
         Additionally, we not onl y reviewed the one best medical records that were submitted to the OIG
for each of the 44 members who had one or more HCCs invalidated, but we also evaluated each of those
member' s records from the data co llection period. We found that many of the members whose HCCs
were audited and invalidated were actually treated fo r the health conditions for which HeCs were
reported, regardless of the OIG's analysis.               Through our review, for example, we found seven (7)
diagnoses that were submitted to support a risk score were supported in records other than the one best
medical record, often among a collection of several records, and perhaps from various providers. 4OI This
highlights a COllUDon situation among members with a chronic disease, for whom a multiple records
should be considered in the aggregate to verify the enrollee's HCC. Had the OIG followed the guiding


391 Please see TAS 2 in the spreadsheet nunched as Appendix C with member-diagnosis level detail that explains
why we believe PacifiCare should receive credit for these HCCs. Please note that the infonnation contained in the
attached spreadsheet is privileged and confidential, and protected from disclosure under the Freedom oflnformation
Act, 5 U.S.C. § 522(c).          .
46' Please see TAB 4 in the spreadsheet attached as Appendix C with member-diagnosis level detail that explains
why we believe PacifiCare should receive credit for these clinically justifiable HCCs. Please note that the
infonnation contained in the attached spreadsheet is privileged and confidential, and protected from disclosure under
the Freedom of lnformation Act,S U.S.C. § 522(c).

                                                                17

                                          Protected From Disclosure Under Federal Law 

                                Exempt from the Freedom of Information Act See S U.S.C. §SS2(b) 

                            Contains Confidential Commercial/Financial and Other Protected Information 

                                                                                                                   Page 18 0f38




principle articulated in the 2006 Participant Guide discussed above that granted MAOs greater flexibility
in the submission of supporting medical record documentation, and had the O[G considered supplemental
informat ion in accordance with this guiding princip le, the OtG would have detennined that many of the
invalidated HCCs were in fact adequately documented and conditions for which PacifiCare members
were actually treated.
        By way of example only, we have high lighted two members whose diagnoses have been
invalidated by the OIG but for whom we have detennined the patient's complete medical record supports
the HCC;
        (I) OIG Patient Number 54, Diabetes ",ith Other Sp ecified Manifestations
                     PacifiCare submitted the medica l record of an encounter dated July 26, 2006 to
            support the diagnosis code of250.80 (diabetes with otiler specified manirestations). TI,e OlG
            found that the documentation supported the diagnosis of diabetes (code 250.0) but found that
            the medical chart notes were difficult to read and that the " manifestations" were not clearly
            documented.
                     PacifiCare disagrees with this assessment. The progress note from July 26, 2006
            indicates that the patient was seen for a diabetes check up, and reflects that the patient had
            decreased glucose (indicated by a down arrow) with tremors. The plan of care included
            stopping the patient's Glipizide, an oral drug used to treat type 2 diabetes. Such a course of
                                                                                   ""\
            action is an appropriate response to hypoglycemia, whieh may be indicated by symptoms
            such as tremors, and is a well known serious reaction to Glipizide. Taken together, these
            symptoms reflect a "specified manifestation" in the ICD-9 tabular for the submitted diagnosis
            code.
        (2) OI G Patiellt Num ber 68, Co" gestive H earl Failure
                     PacifiCare submitted a medical record from an emergency room visit on October 2,
            2006 in support of diagnosis code 428.0 (Congestive heart failure, unspecified), among other
            diagnoses. The record indicated that the patient was seen for generalized weakness and pain
            below the waist with a past history of heart failure, ltigh blood pressure, heart attack, heart
            fai lure, DVT, dysphagia, high cholesterol, and renal disease. The OIG detennined that while
            it was likely that any of these past diagnoses could be assessed during part of a general
            overview of the patient's health, the physician did not speci.fical1y document any active
            treatment or assessment of these conditions at this visit.                      The DlG concluded that the
            presence of heart failure did not affect the care, treatment or the management provided at this
            encounter.

                                                             18

                                       Prolcctoo From Disdos ure Under Fedcrullaw 

                             Exempt rrom Ihe Freedom of Infonnatio n ACI. Sec 5 U.S.C. §SS2(b) 

                         Contains Confidential CommcrciaVFinaocial aod Other ProtcclC:d Inronnation 

                                                                                                                           Page 19 0f38




                     However, the order sheet from this date of service shows that the treating physician
            ordered a test for congestive heart failure, beta-natriuretic peptide (BNP), which returned
            dramatically elevated levels that strongly suggested congestive heart failure. Moreover, this
            patient's medical record documents earlier treatment for congestive heart failure during the
            reporting period. On March 1, 2006 and August 29, 2006 the patient was seen for persistent
            cough and weakness. On August 29 th, this patient was treated with an increased dose of
            diuretic, a maneuver used for heart failure.


 VI .   P OLIC IES AND PROCEDURES

        The Draft Report asserts that PacifiCare did not have written policies and procedures for
obtaining, processing, and submitting diagnoses to eMS. As explained to the                             ora   during the audit,
PacitiCare largely used automated systems for obtaining, processing. and submitting diagnoses to CMS.
PacifiCare had docwnented system protocols for the processing of data through its systems.
        The Draft Report also states that PacifiCare's practices were not effective at ensuring that the
cliagnoses submitted to CMS complied with the requirements of the Participant Guide. As indicated, we
respectfully disagree with OIG's draft conclusions regarding whether the audited diagnosis codes were
indicative of the medical conditions experienced by PacifiCare's members. PacifiCare's practices were
sufficient to ensure that its submi ssions complied with the Participant Guide requirements.
        The Draft Report indicates that PacifiCare did not routinely use chart validation as a preventative
practice, but instead used it as a response to external auditors' requests for documentation. Tllis statement
is not accurate and suggests that the OlG miswlderstood what it was told regarding chart validation. In its
written response to OrG's questions, PacifiCare explained:
        A chart validation invo lved the review of a provider's patient charts to determine whether
        they supported certain codes that the provider had reported. We selected a provider for
        chart va lidation based principally on whether the provider's coding was unusually high
        compared to a nationa l benchmark established by our risk adjustment system. The chart
        validation tested the provider's deviation from that benchmark. Codes found to be
        inaccurate or incomplete through chart validations were deleted.

This process was used as a validation tool of codes submitted related to 2006 dates of service.
        In addition, PacifjCare implemented a number of provider education and outreach initiatives that
stressed the importance of proper coding and documentation. PacifiCare shared with the OIG examples
of these initiatives, including flyers that discussed symptoms of specific diagnoses such as depression and
cancer to ensure that providers were not inappropriately assigning these ICD-9 codes, as well as



                                                             19

                                         Protected From Disclosure Under FoderalLaw 

                             Gtempt from the Freedo m of Information Act. See S U.S.C. §SS2(b) 

                         Conlllins Confidential CommerciaVFinancial and OUler Protected Infonnation 

                                                                                                               Page 20 of38




documents that were presented to network provider groups that emphasized the importance of accurate
documentation.
  VII. CONCLUSION
         For the reasons stated above, PacifiCare respectfully disagrees with the OiO's fmdings and
.recommended extrapolation. Significantly, the OIG fa ils to account for the underlying complexities of
risk adjustment payments in its audit methodology, and as a result, grossly overestimates an alleged
overpayment amount. eMS's risk adjusted payments are not designed so that discrepancies found in
infonnation submitted to support risk scores can be extrapo lated to the contract level.                  eMS has
recognized that there are comp lexities in validating risk adjusted payments and extrapo lating
discrepancies to the contract level, but has not yet revealed or published its methodology for doing so.
Thus, the orG's recommendation to extrapolate any alleged overpayments is fundamentally flawed and
inappropriate.
        Moreover, our analysis of the alleged overpayment amount - using the calculation methodology
used by the OIG - is reduced from $199,672 to approximatel y $106,000'" if the additional HCCs we
have identified are considered. Notw ithstanding our previously stated concerns regarding the validity of
the OIG's sampling and extrapo lation methodologies, the individual impact of each of these HCCs on the
OIG's recommended extrapolation would be substantial, and the precision of the DIG's calculation of
extrapolation falls significantly if the attached HCCs are considered. Accordingly, we urge the OIG to
evaluate carefully each of these HCCs before issuing a final audit report in order to support the objectives
of the audit to ensure that PacifiCare received accurate payments for the health status of its members.
        We appreciate the opportunity to provide comments on the Draft Report, and welcome any
questions or comments you may have about our response. In light of the points detailed above, we
request that the OIG withho ld its fina l report to allow CMS to address the issues raised in the Draft
Report in the course of its developing RADV audit process. In the alternative, we ask that the DIG attach
these comments as an appendix to any final report issued .
        Please do not hesitate to e-mail meattomspaul@uhc.com.
                                                                     Sincerely,


                                                                    ~~
                                                                     Thomas S. Paul
                                                                     Chief Executi ve Officer, Ovations
cc:     Antigone Potamianos


   This estimated overpayment amount could fluctuate slightly due to rounding and other arithmetic anomalies
4 1/
inherent in risk score calculations.
                                                              20
                                        Protccted From Disclosure Under Federal Law 

                             Exempt from the Freedom of InfOm)alion Act. Sec 5 U.S.C. §5S2(b) 

                          Conwi ns Confidentia l Commercial/Financial and Other PrOleclcd lnfonnation 

                                                                                                                        Page 21 of38




                                                      Appendix A
                                   Researcb on Errors in Diagnosis Coding
        A number of studies have evaluated coding accuracy. including coding ambiguities and errors.
One such study developed a framework for characterizing errors as shown in the chart below. 42/



    Patient Trajectory                                Sources of Error                                       Paper Trail


     Patient arrives at
          facility
           .j.
                                           Amount and quality of Information at
                                                       admission
                                                                                             -           Admilting diagnosis
                                                                                                             reeorded

                                                                                                                   J.
     Patient/clinician
        exchange
                                              Communication       Qual~y betw~                         Physician records tests
                                                 ~.ilent. and clinicians                                  and procedures
       information                                                                                             ordered
           J.                                                                                                      J.
                                                Clinioian's test and procedure
    Patient undergoes                                        knowledge
    tests, procedures,
     and consultations
   by other health care
         providers.
                                        QuaHty/avallabllity of teSls and procedures
                                                 Lost/misplaced paperwork or
                                          paperwork not shared across providers
                                          Science for using tests and procedure.
                                                     to make diagnosis
                                                                                             -          Test and procedure
                                                                                                          resulls added to
                                                                                                               record



           .j.
                                                                                                                   J.
   Patient discharged                            Cllnlcaltralnlng/·oxparlonce
                                           Variance across teons and language                             Physician records
                                                                                                             diagnosis
                                             Differences across handwriting or
                                                     computerized notes
                                                                                                                   J.

                                              Olllgol1Co compUlng Information
                                                                                             -           R.cord chocked and
                                                                                                         completed by He.llh
                                                                                                       Information Managemen1
                                                                                                             Department




421 Measuring Diagnoses: lCD Code Accuracy, Heallh Service Research 2005 October; 40(5 Pt 2): 1620-1639).
This article can be obtained at: http://www.ncbi.nlm.niit.gov/pmc/articlesIPMC136 121 6/.
                                                          21

                                         Protected From Disclosure Under- Fedcrnl Law 

                              Exempt from the Freedom of Infonnalion ACl Sec 5 U.S.C. §SS2(b) 

                          Contains Confidemial CommerciaVFinnncial and Other Protected Infonnation 

                                                                                                                Page 22 of38




        Research has also shown that errors in selecting the principal diagnosis may result from
misunderstanding or misinterpreting a coding guideline, including failing to read encoder messages,
inclusion and exclusion tenns, and coding references during the coding process,43!
        Common examples of incorrect principal diagnosis selection include:
            •    Coding a condition when a complication code should have been selected instead.
            • 	 Coding a symptom or sign rather than the definitive diagnosis.
            • 	 Assuming a diagnosis without definitive documentation of a condition.
            • 	 Coding from a discharge summary alone.
            • 	 Incorrectly applying the coding guidelines fo r principal diagnosis, especially in a
                situation where the coder selects the diagnoses when two or more diagnoses equally meet
                 the definition of principal diagnosis.
        Secondary diagnoses are frequently coded when they do not meet the criteria for reporting
secondary diagnoses. Some of the "traps" in coding secondary diagnoses arc found in physician
documentation. Examples include ~use of the lenn " history of' for conditions that are currently under
treatment, as well as for those that have been resolved prior to admission and misuse of tenns.                 For
example, "coagulopathy" is often documented when a patient on anticoagulant therapy has an expected
prolonged prothrombin time, ratller than a true coagulopathy.                In addition, secondary diagnoses may be
missed by coders who code from a discharge summary alone without reviewing all documentation.




4)1Ruth Orcutt, Common Coding Errors and How to Prevent Them. Clinical Insights, June 2009, www.clinical­
insights.com!resources-June09CodingErrors.htmL
                                                            22
                                       Proto::tod From Disclosure Under Federal Law 

                             Exempt rrom the Freedom or Information Act. See 5 U.S.C. §552(b) 

                         Contains Confidentilll CommerciaVFinancial and Other Protected Inromlation 

                                                                                                              Page 23 0f38




                                                           Appendix B 

                Identification of Confidence Intervals When Forecast Errors are included 



      A. 	 The OIG Methodology for Computing Overpayment Confidence Interval
          The DIG computes the 90% confidence interval of the overpayments by applying the standard 1­
statistic methodology (the relevant va lue for 90% confidence with a sample size of 100 is 1.66). From
Appendix C of the OIG Draft Report, overpayment amounts are shown for 44 of the 100 beneficiaries.
The remaining 66 beneficiaries have zero overpayment. Using this data, the sample overpayment mean is
$1,996.72 and variance is $ 12,686,696. The lower and upper bounds of the population mean of the
overpayment is computed as $1,996.72 ± 1.66*[$ 12,686,696/(100-I W0.5, yielding a 90% confidence
interval for the population mean of [$ 1,402.48, $2,590.97]. The overpayment confidence interval for the
population is computed by mUltiplying the confidence interval for the population mean by 62,987 to yield
[$88,546,120, $162,988,333].
      B. 	 Overpayment Confidence Intervals When Corrected to Include the Forecast Errors from
          the Pope Model
          In computing this confidence interval, however, the OIG extrapolation incorrectly excludes the
model errors from the CMS-HCC risk adjustment modeL441 This model, as with all models that forecast
future health expenditures based on current and past health conditions, exhibits significant forecast error.
Although this error is sma ll relative to total expenditures when the model is applied across large
popU lations, the error is significant when the mode l is app lied to a small set of beneficiaries. Given the
high forecasting error associated with tlus model as acknowledged by its authors,4 sl the variation between
actual and forecasted expenditures for the OIG sample may differ significantly across random samples
drawn from the population.
         The overpayment determined in the sample can be defmed as:


          However, this calculation ignores the error introduced by the audit itself, since the predicted
cap itation amounts for individual records obtained from the Pope model are estimated with significant
uncertainty. The following representation correctly accounts for both sources of uncertainty:




'" Pope et ai. , (2004).
451Pope et aI. , (2004), p. 131.
                                                                 23

                                            Protocted From Disclosure Under Federal Law 

                                 Exempt from the Freedom of Infonnalion Act. See S U.S.c. §SS2(b) 

                             Contains Confident ial CommerciaVFinaocial lllld Other Protected Infonnation 

                                                                                                                                             Page 24 0f38




           D2 will have the same expected value as Dl • since the expected value of the overpayment remains
unchanged from the OIG analysis (the expected value of the error tenns are zero). However, D2 has a
signi ficantly higher variance. To estimate the variance associated with D2• a proxy for the error terms
eM~dit", R~oord and   edll(tfft   is needed.
           A statistical bootstrap approach was employed to incorporate forecast errors into the confidence
interval of the overpayments. Proxies for the two error teons error tenus                               eMeditul Rttord   and   ecillitlU   were
developed from the population audited in the                      ora     analysis (contract H4590 and continuous enrollment
January, 2006 through January 2007).                       Population members that continued to be members in December,
2007, and which did not utilize any capitated services were selected (n=23,666). Using the risk score for
these members, and the medical expenditures for 2007. an estimate of the "national predicted average
annual cost" was computed. This va lue was obtained where the risk factor multiplied by the national
predicted average atmual cost for all beneficiaries was equivalent to total medical expenditures for all
beneficiaries.        The proxy error for each observation was then generated by subtracting the forecasted
expenditures (risk score times national predicted average annual cost) from the actual 2007 medical
expenditures. This approach yielded and estimate of the variance of forecast errors of $813,846,784.
Recall that this reflects only the population of members w ith at least one HCC.


Method 1: Assume                  eMcdlcal RWIr/I   and ed'lj",. are independent. and both have th e distribution of the
proxy errors computed above.

           The bootstrap approach consisted of drawing 10,000 samp les of 100 observations each. Each of
the observations included a random draw of (CPMedICfl / R«YJrrf                   -   CPc/alm$) with replacement from the sample
of 100 overpayments/ underpayments (including 66 zeros), and an independent separate random draw
(with replacement) of each of eM, I/leol Record and              e dmmr   from the 23,666 proxy errors. In each observation, if
a 0 was drawn for (CPMcdicaJ Rn:ord                 -   CPdaiiH.r. (Le. one of the 66 observations with no adjustments), then
eMct/icol Rccorl/   and   e dalHfI   were also sel to zero (no forecast error if no overpayment or underpayment
amount). For each observation, D2 was then computed.
           By repeating the above steps, 10,000 samples of 100 observations each were obtained, The next
step included computing the average D, for each of the 10,000 samples. By ordering the resulting 10,000
average values of D2• the confidence interval was determined using the bootstrap percentiles, i.e. the                                      sooth
(5%) and 9,500'h (95%) value of average D,.
           Under Method I, where the two error terms are independent (Le., the covariance term is zero), the
resulting bootstrap-obtained confidence interval was [-$115,650,322, $372,809,489] versus the O IG·
reported confidence interval of [$88,546,120, $162,988,333]. This confidence interval, which includes
                                                                        24

                                                    Protected From Disclosure Under Fcdr.:mll.aw 

                                         Exempt fro m the FRedom of tnfonnalion Act. See 5 U.S.c. §SS2(b) 

                                     Contains Confidential CommcrciaVFinancial and Other Pmtocted Infonnalion 

                                                                                                                                   Page 25 of38




zero, suggests that the population variance is very high and the population overpayment is not statistically
different from zero. A second option regarding the distributions of eMe./icll/ HUON and                      erJalHlIl   are considered
in Method 2.


Method 2 - The forecast error terms are correlated, and the size of the error term is relative to the
size of the forecasted overpayment (or underpayment).
        This implies that eMedlul Ruord and      edll/tfU   are correlated, and that:
            3.   faMrgI Record - reeVed/eel BerardI CP+c"rrl! e oN"'"

        This method, although ad hoc, assumes that the size of the error tenn is relative to the size of the
forecasted expenditure, a reasonable assumption. Furthennore, this method has an empirical basis since
forecast errors were found to increase as the expected medical expenditure increased. By rearranging the
tenns in the above equations,


        This fonnulalion imp ties that the forecast error introduced by the audit adjustment methodology
is directly related to the overpayment, as a percent of the original payment.                              An identical bootstrap
approach as Method I is used, except only one random draw of a forecast error tenn is needed. Again, in
this case, if there was no overpayment, the error tenn is zero. Method 2 yielded a confidence interval of
[$48,0 19,168, $ 192,972,59 1].
        Additional methods might be proposed. Significant empirical work including obtaining variances
of model parameters may be required to obtain an accurate confidence interval. In the end, however,
including the model error wi ll result in a wider confidence interval.




                                                                25
                                        Protected From Disclosure Under Fedeml law 

                              Exempt from thl: Freedom of Info nnation Act. See 5 U.S.C. §552(b) 

                          Contains Confident ial CommereiaVfinanc ial and Other Protected Info rmation 

                                     Page 26 of38




                                            g

     r--+-t-+--+--+--+---I--f----/;.~
                                         '.IH
                                         · g,I~
                                        . i' z ~
                                           .~"
                                      .-
                                         . ~t
                                           ....
                                            ,~
                                     .... I


         i


         h
         !~l .
                 !
                 it
                               ~
                               ~ .


                               t
t-       a.      1                               !

"•       ~a
             •
                 1
                 ••
                      ,
                      ~
                               I                 ~
                                                 0
                                                                                      9/10/2010




                                                                                             -
                                                                               Authenticity" dated




               Pl'OIeCled Fn;lfT1 Disclosure Urnief Federal LtIW
    E~empI from   the Freedom c:llnformation Iv:.t. See l'.i U.S .C. §5S2(b)
ContaIns ContiderJtiat Cornmen::iaIIFlnilOdat and Other ProIeded Information         P9gelc:16
                                    "TAB 2"




                                                                                    Mhough !he paIienIls not
                                                                                     dGtilmllned by denying




              ProteCIed From DIsclosure 1Jnder FeooraI Law
    Exempt from the Fre&dom of Information Act. See 5 U.S.C. §552(b)
Contaln, Confidentlal CommerdsllFlnanclal and Otlle!" Proteded I!'IfOl'lT\£lIlol1                  Pa(/e201'6
               f>roIec(ed From Oisdoaure Under FederalLiIW
    Exempc from the FIlIedom of Infofmalion Ad.. See 5 U.S.C. §552(b)
C<lntain, Confiderrtial CommerdaVFlrlaocl8l and Otllef Protected Informallon   Page3of6
                                                                                                                 ........""""'"
                                                                                                       that patient has m'iOt
                                                                                                     and was given Fluoxitine.




                                                                                                                  -"'"
                                                                                                                   on IIXIIm.

                                                                                                                  alter lIGMing
                                                                                                                thaI&um and
                                                                                                   eon\rolled on NOlVlItc. May
                                                                                                  be<ng !le3led pef coding
                                                                                 and is related to the present visit.



                                                                    ' ~"",""",!,~ on page 2 for DOS 712612006 aupport.I
                                                                    I:          ¥oith oItler specific manifestation (hypogtyoemiaJ
                                                                                PhysIcIan $I09ged mediealiDn GIipQ:lde lllal
                                                                                   taking for dlaOOCk: blood sugar c:mtroI.
                                                                                                     stales comp/\cations from OM




              Protected from 0lscI0ture Under Federal Law 

   Exemp! from the Freedom of Information Ad.. See oS U.S.C. §552(b) 

Contains Confidential CommerclaVFln8ncla1 and Othel" ProI:8ded lnformatioll 

                               "fAST                                             91'1012010
      HOC_




                                                                                     p....
                                                                             _           35




               Prot9cted From Oisdl»ufe UOder fedBfllj l....... 

                                                                             -­
   Eaempt from the Freedom of Information Ad... See 5 U.S.C. §552(b) 

Contains CortidanIiaI ~ 8ftd Other PIOIeeIed ~                           

                               "fAST                                             91'1012010
      HOC_




                                                                                     p....
                                                                             _           35




               Prot9cted From Oisdl»ufe UOder fedBfllj l....... 

                                                                             -­
   Eaempt from the Freedom of Information Ad... See 5 U.S.C. §552(b) 

Contains CortidanIiaI ~ 8ftd Other PIOIeeIed ~                           

                                "TAB 2"                                                                           9/1012010
      HCC Review - Listing of HCCs from D IG-62 that were validated




                                                                             that the office visit was at a Podiatrist's office,
                                                                                  problem was an ulcer. Location of the ulcer
                                                                      do<:unlen,ted as RJL ; therefore. unable to determine
                                                                                    the ulcer was located. Correct ICD-9 code
                                                                               ulcer of unspecified site is 707.9 which is
                                                                          the original HCC of 149.




              Protected From Disclosure Under Federal Law
    Exempt from the Freedom of Information Act. See 5 U.S.C. §5S2(b)
Contains Confidential CommerciaVFinancial and Other Protected Information                                        Page 6 of 6
                                 "TAB 3'                                                                    911012010
         Usting of HCCs fl'om OIG-62 supported by Clinical Review
                      Pacificare of Texas CY 2007




                                              1 ~::'::~;,7:~~~"""":::t  cancer." and, "The HistOf}' of bteast cancer
                                                      change the code to Vl0.3)'"

                                                                    . medical record rove81s th8t she Is receiving
                                                                    The patient had a left mastectomy with lymph node
                                                                               positlva In 2005. She subsequent
                                                                             radiation. All occurred In 112005. The
                                                                In                                  for ongoing follow
                                                                   At that time 8 mammogram and CA 125 ordered
                                                                            The patient Is only OI1a year out from a
                                                              i with metastatic spread to lymph nodes and she is
                                                         ongoing follow up by an oncology physician.




                                                                        I     i         patient presented for 8 cardi8C
                                                                            nu~s        In arms, chest 8lld entire torso
                                                                       30 minutes before resolving. There was no
                                                              evaiU8lion. clinical findings andlor Ire8tmenl related 10
                                                   1CD-9eode.

                                                     review of the documentation In the medical record , the 10f9/06
                                              I ::;~~:~.                      ' indlcetes a patient visit 'M1h ' ower
                                              I~              and "pain in both feer" In the HPJ; 'calft1eg pain"i;",""'.1
                                                                these fln<ings ara consistent 'Nith a peflphefal
                                                                       3116106 eocounter, documentation Is present In
                                                               i and HPI 01 pain and numbness In both legs. The
                                                                                a sansOf}' deficit In the feet with slight
                                                                    Evaluation Is consistent with Ihe work up for
                                                                                  The clinical record Is consistent with




              Protected From Disclosure Under Federal Law
   Exempt fl'om the Freedom of Information AcL See 5 U.S.C. §552(b)
Conlains eonrldential CoimIefciallF.,anciaJ and Othef Protected Information                               Page 1 014
                                       "TAB 3"                                                                            9/10/2010
               listing of HCCs from OIG-62 supported by Clinical Review
                             Pacificare of Texas CY 2007



                                                          -:c~;;.;:;;t;;;:;::;;~~i'[;~~the encounter on
                                                                      code 357.9 (Inflammatory and toxic neuropathy,
,".                                                                       documentation included a nerve conduction study
                                                                      interpreted by a physician, this is unacceptable
                                                    Id()culm'!nt,.ti(maccording to the RA Participant guide section 7.2.4.4.

                                                              review of the medical record , a nerve conduction study was
                                                    Ipe,rfolrmeid on W I2006 which was interpreted by                              The
                                                                     this study were: ~There is electrodiagnostic
                                                    l e'·ide'nc'•. .. consistent with but not fully diagnostic of a sensory
                                                    IP(lIyrleLlrOIJalny.. ...This could be consistent with diabetic neuropathy."
                                                                         the provider                , clarification was obtained as to
                                                               i       diagnoses. . .. reply on 12129/08 indicates that the patient
                                                           peripheral neuropathy of the distal extremities bilaterally.

                                                                     440 .0 (Atherosclerosis of aorta) was submitted for the
                                                    1~;~~'~~:~;,:~1~2J~~1.!5:~/2;~0:016.  The OIG notes that the diagnosis is not
                                                    I(                                 in the patienfs record of diagnoses.

                                                    IHlJW'.v,,,. on a CT scan of the abdomen done at
                                                                 on 218/06. ~Athe rosc l ero ti c changes are seen in the great
                                                    IvelSs,,,s." Similar fi ndings are found on a CT scan at
                                                                  on 211 0106. Additionally. on a PETICT scan on 1/3/06.
                                                    ,"E'xt'lns.ive atherosclerotic vascular disease is again noted ." Medical
                                                                              " j indicate abnormal pulses on 7118/06. 9119/06.
                                                    11 ,ij115/06 . These finding are consistent with atherosclerosis of the aorta
                                                           the submitted ICO-9 code of 440.0.




                    Protected From Disclosure Under Federal Law
         Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
      Contains Confidential Commercial/Financial and Other Protected Information                                        Page 2 of 4
                                 "TAB 3"                                                                   9/101201 0
        Listing of HCCs from 01G-62 supported by Clinical Review
                      Pacificare ~ TelUls CY 2007

        -I'   "



                                                                                               I i               the
                                                                patient presents with complaInts of fatigue x 2 'oY88M.
                                                            denies mdiatlon of pain. swelling. redness, direct trauma .
                                                               numbness and has positive pedal pulses. The member
                                                                  hlstOl'yof neuropathy. however. no documentation to
                                                      thIs alfected the care. traatment or management provided at
                                                   encounter.

                                                              review of the docUmentation ill the medical records for
                                                                  documents that the          ' denies
                                                                                             physician Is assessing
                                                                        The physician goes OIl to document a past
                                                                  neuropathy and concludes with an assessment that
                                                                                          and Toxic Neuropathy"
                                                                         assessment. The clinical record therefore
                                                                              code 357.9.

                                                         does not support tCD-9 codes 440.20 (Atheroscl9f08is ollhe
                                                         • unspeclfted) or 443.9 {Periphetal vascutar disease,
                                                             The physician documented · PVO" as one of five listed
                                                                   this diagnosis did not affect the care. treatment or
                                                               patient al this encounler.

                                              IH<m,,,,, upon review of tile records of May 23. 2006 from
                                                              the Ooc;l.Imentatlon Indicates thatlhe DP (dorsalis
                                                         PT (posterior tibialis) pulses are 0/4. The mting of 0/4
                                                                          are absenL The physician rur1hennore
                                                                                        The physician's plan Indicates
                                                             the !lalls. The clInical evaluation for and the",""""ofl
                                                        vascular disease Impacts the care provided to thIs patient by
                                                i physician,




              Protected From Disclosure Under Federal Law
    Exempt from the Freedom ollnformatlon Act See 5 U.S.C. §552(b)
ContaIns Confidential CommerciallFlnanclal and Other Protected Inlconation                               Page 3 of 4
                                  "TAB 3"                                                                    9/10/2010
         listing of HCCs from OIG-62 supported by Clinical Review
                       Pacificare of Texas CY 2007




                                                        upper limb, including Shoulder) was submitted on 12107/2006.
                                                        has noted that there is no evidence of an evaluation , clinical
                                                       and/or treatment related to the ICO-9 code.

                                                       review of the medical records, the patient was seen on
                                              m'/211/2(]06 by                       notes a left forearm lesion that was
                                                            and that appears to be a squamous cell carcinoma . This
                                                            present on the previous visit of 1217/2006.
                                                         the patient to
                                                                            The patient was seen on 12128.2006 by
                                                         who noted a 1 em ulcerated lesion of the left forearm. Local
                                              l ex:cisionwas planned. The clinical picture of a non-healing ulcer of
                                                         weeks dUration is consistent with a malignancy.

                                                   our coding experts, reference to the shoulder in the ICO-9
                                              IdetScliot,i on is permissive, not mandatory. That is, the deSCription of the
                                                      is for the upper limb to include the shoulder .if involved.




              Protected From Disclosure Under Federal Law
   Exempt from the Freedom of Information Act. See 5 U.S.C. §552(b)
Contains Confidential Commercial/Financial and Other Protected Information                                 Page 4 of 4
                                "TAB 4" 
                                                                  9110/2010
            HCC Review - Aiternative HCC validated for OIG-62 

                     Pacificare of Texas CY 2007




                                                                                patient did have a past
                                                                                  left sided hemIparesis        in the
                                                                               of present illness, past medical history
                                                                             a."essment (page 9-10). A more specific
                                                                              for status post cerebrovascular disease
                                                                             left sided hemiparesis is 438.20 which is
                                                                               HCC 100.




              Protected From Disclosure Under Federal Law
    Exempt from the Freedom of Information Act See 5 U.S.C. §552(b)
Contains Confidential Commercial/Financial and Other Protected Information                               Page 1 of 1
